<html>
<title> - [H.A.S.C. No. 115-6]MILITARY SERVICES FIFTH-GENERATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







                          [H.A.S.C. No. 115-6]
   ___________________________________________________________


 
                   MILITARY SERVICES FIFTH-GENERATION

                      TACTICAL AIRCRAFT CHALLENGES

                     AND F-35 JOINT STRIKE FIGHTER

                             PROGRAM UPDATE

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 16, 2017
                           


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      





                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-678                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001  
  
                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     (Vacancy)
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     4
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     2

                               WITNESSES

Bogdan, Lt Gen Christopher C., USAF, Program Executive Officer, 
  F-35 Joint Program Office......................................     4
Davis, LtGen Jon M., USMC, Deputy Commandant for Aviation, 
  Headquarters, U.S. Marine Corps................................     7
Harris, Lt Gen (Select) Jerry D., USAF, Deputy Chief of Staff for 
  Plans, Programs, and Requirements, Headquarters, U.S. Air Force    10
Miller, RADM DeWolfe, USN, Director, Air Warfare (OPNAV N98), 
  Headquarters, U.S. Navy........................................     9

                                APPENDIX

Prepared Statements:

    Bogdan, Lt Gen Christopher C.................................    44
    Davis, LtGen Jon M...........................................    75
    Harris, Lt Gen (Select) Jerry D..............................    91
    Miller, RADM DeWolfe.........................................    83
    Turner, Hon. Michael R.......................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................   112
    Mr. Lamborn..................................................   114
    Mr. Langevin.................................................   111
    Mr. LoBiondo.................................................   111
    Mr. Turner...................................................   105
    
    
 MILITARY SERVICES FIFTH-GENERATION TACTICAL AIRCRAFT CHALLENGES AND F-
                 35 JOINT STRIKE FIGHTER PROGRAM UPDATE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                       Washington, DC, Thursday, February 16, 2017.
    The subcommittee met, pursuant to call, at 9:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.
    Mr. Turner. The hearing will come to order.
    The subcommittee meets today to receive testimony on the 
military services fifth-generation tactical aircraft challenges 
and to receive an update on the F-35 Joint Strike Fighter [JSF] 
Program.
    I want to welcome our distinguished witness panel for 
today: Lieutenant General Chris Bogdan, United States Air 
Force, F-35 Program Executive Officer; Lieutenant General Jon 
M. Davis, United States Marine Corps, Deputy Commandant for 
Aviation; Rear Admiral DeWolfe ``Chip'' Miller, United States 
Navy, Navy Director of Air Warfare; and Lieutenant General 
(Select) General Jerry D. Harris, United States Air Force, 
Deputy Chief of Staff for Plans, Programs, and Requirements.
    Gentlemen, we thank you for your service and we look 
forward to your important testimony today.
    Before we begin, we would like to take care of some 
administrative details. I am pleased to announce that Paul Cook 
will again be serving as the vice chairman of this 
subcommittee.
    Paul, thank you for agreeing to be vice chairman.
    Mr. Cook. Thank you.
    Mr. Turner. I now will turn to introducing the new members 
who are on the subcommittee. Our new members include Don Bacon, 
who represents Nebraska's Second Congressional District. A 
retired Air Force brigadier general, Don has commanded twice at 
the wing level, at Offutt Air Force Base and Ramstein, Germany.
    Matt Gaetz represents Florida's First District, home of one 
of the largest military districts in the country, including 
Naval Air Station Pensacola and Eglin Air Force Base.
    Trent Kelly represents Mississippi's First District. A 
colonel in the Mississippi Army National Guard, he has served 
for 30 years as an engineer, including multiple tours in Iraq.
    We also have Jim Banks, who represents Indiana's Third 
District, home of 122nd Fighter Wing of Indiana National Guard. 
A Navy supply officer, he has recently completed a tour in 
Afghanistan.
    We are glad to have our new members of the subcommittee and 
I will now turn to our ranking member, Ms. Tsongas, who will 
also introduce the new members who are our Democrats.
    Ms. Tsongas. Thank you, Mr. Turner, and I look forward to 
working with you. And welcome those who are here today to 
testify.
    I would like to recognize our new members to the 
subcommittee. First, I would like to welcome my colleagues Jim 
Langevin of Rhode Island and Jim Cooper of Tennessee, who are 
by no means new to HASC [House Armed Services Committee]. Both 
Mr. Langevin and Mr. Cooper are ranking members; Mr. Langevin 
on Emerging Threats and Capabilities, Mr. Cooper on Strategic 
Forces Subcommittees. Mr. Cooper actually also served on this 
subcommittee as recently as the 113th Congress, and we are 
lucky to have him back.
    I would also like to recognize additional new members at 
the subcommittee who are also new to Congress. Congresswoman 
Jackie Rosen of Nevada's Third Congressional District most 
recently served as a president of the largest reform synagogue 
in southern Nevada. Her district is just a short drive from 
Nellis Air Force Base and home to the U.S. Air Force Warfare 
Center.
    Congressman Salud Carbajal represents the 24th 
Congressional District of California which is home to a number 
of military facilities, including Vandenberg Air Force Base. 
Congressman Carbajal served 8 years in the United States Marine 
Corps Reserve, including active duty service during the 1991 
Gulf war.
    Congressman Anthony Brown represents Maryland's Fourth 
Congressional District and previously served as Maryland's 
Lieutenant Governor and Majority Whip in the House of 
Delegates. Congressman Brown was awarded the Legion of Merit 
for his 30 years of distinguished military service and the 
Bronze Star for his service in Iraq.
    Congressman Tom O'Halleran served for 8 years in the 
Arizona State legislature before coming to Congress. Prior to 
his time as an elected official, Tom served on the Chicago 
Board of Trade and was a small-business owner.
    And Congressman Tom Suozzi represents the north shore of 
Long Island, as well as northwestern Queens. Previously he 
served as mayor of his hometown, Glen Cove, New York, and was a 
county executive of Nassau County.
    Again, thank you and we welcome them all, not all here 
today, but I am sure will be participating on a regular basis.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. Thank you, Ms. Tsongas. I want to thank you 
again for your commitment to the bipartisan spirit of this 
subcommittee, which I know we will see in our new members also 
as a result of your leadership and our relationship.
    This is a timely hearing and it is complementary to our 
Chairman Mac Thornberry's full committee hearing on the state 
of the military. Last week, the committee heard testimony from 
each of the military services' vice chiefs of staff that the 
force is strained and that the services have to do more with 
less.
    These challenges combined with years of budget-driven 
national security strategies and cuts, rather than threat-based 
strategies, have led to a military readiness crisis. With a new 
administration indicating its intent to rebuild the U.S. Armed 
Forces, I look forward to working with them to reverse this 
harmful trend in military readiness. Modernization and building 
capacity are critical components of restoring readiness.
    This brings us to today's focus, fifth-generation tactical 
fighter requirements and the F-35 strike fighter program. This 
is the third oversight hearing the committee has held over the 
past year on the requirements and the importance of the fifth-
generation fighters, given current and emerging threats. And 
this is a critical time for the F-35.
    One of these hearings was at the National Museum of the 
United States Air Force at Wright-Patterson Air Force Base on 
June 18th, 2016, and the witness then, Major General Jerry 
Harris, here with us today, and then Vice Commander of Air 
Combat Command, showed us a striking picture of one-half of an 
F-35 strike fighter and one-half of a Chinese J-31 fighter 
joined together.
    It looked like one aircraft and it left no one to doubt 
that our adversaries are extremely close to fielding fifth-
generation fighter programs of their own. With only 187 F-22s 
and 219 F-35s being produced, we will have very limited fifth-
generation capacity. The F-35 strike fighter program is nearing 
the end of its development program and is over 90 percent 
complete. It is no secret that the F-35 development program has 
faced some significant challenges in cost and schedule overruns 
early in development. After being re-baselined in 2010, the 
program has been successful in meeting cost and schedule goals.
    Although F-35 development is scheduled to be completed by 
October of this year, General Bogdan has noted in previous 
updates that there remains about 3 to 4 months of schedule risk 
to completion of the F-35 development program and additional 
costs could be incurred.
    In terms of oversight, the subcommittee remains concerned 
about the costs associated with closing out the F-35 
development program, the maturity of the program to potentially 
execute a block buy for fiscal years 2018 through 2020, and 
determining whether more efficient program management can help 
accelerate the initial operational test and evaluation program. 
We expect to gain a better understanding of these important 
oversight issues today.
    During our hearing last July, on fifth-generation fighters, 
General Herbert ``Hawk'' Carlisle stressed that fourth-
generation aircraft still plays a significant role in the near 
term in assessing fighter capability and inventory concerns, as 
we have few operational fifth-generation fighters. He also 
noted that the importance of fifth-generation fighters, and I 
am going to quote him, says, ``The role of our fourth-
generation fighters will diminish over time due to two main 
reasons. The first is they will age out and be replaced by more 
capable F-35s. But more pressingly, our fourth-generation 
fighters are more increasingly unable to operate in highly 
contested environments where advanced air defense systems 
render them ineffective.''
    Given current fiscal constraints, the military services are 
being forced to prioritize between building capacity in fourth-
generation tactical aircraft inventory to help mitigate some of 
the immediate readiness burdens on the current force, or trying 
to accelerate needed fifth-generation tactical aircraft 
capability.
    For national security purposes, it is not a question of one 
or the other, which I hope we will discuss today. It really is 
an answer of we need both and we need more of both.
    In closing, there have been several reports and comments in 
regards the President's concern for the need to lower the cost 
of the F-35. Affordability of this program has always been an 
oversight issue, both for this committee and Congress. We 
welcome the President's attention and the effect that this may 
have on the overall program and its cost.
    I am looking forward to working with the new administration 
and the Department of Defense [DOD] to continue to explore ways 
to reduce costs in this program and other defense programs.
    I will now turn to my ranking member, Ms. Tsongas.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 41.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman, and I would like to 
commend you for picking such an important topic to begin our 
slate of hearings in the 115th Congress.
    For over two decades, the Department of Defense, the 
military services, and industry have worked to produce the most 
advanced fighter aircraft in history. As with any project of 
its size, scope, and complexity, the F-35 deserves appropriate 
congressional oversight. And I look forward to speaking with 
today's witnesses to get a better understanding of how the 
Joint Program Office and the services plan to move forward with 
the program's development and testing.
    With that, I yield back and I look forward to your 
testimony.
    Mr. Turner. General Bogdan, you will be opening the 
hearing.

   STATEMENT OF LT GEN CHRISTOPHER C. BOGDAN, USAF, PROGRAM 
          EXECUTIVE OFFICER, F-35 JOINT PROGRAM OFFICE

    General Bogdan. Thank you, sir.
    Chairman Turner, Ranking Member Tsongas, and distinguished 
members of the committee, thank you for the opportunity to 
address this committee regarding the F-35 Lightning II Program. 
I wish to keep my remarks short in order to allow more time for 
your questions.
    I am happy to be joined today by three distinguished senior 
officers who represent our U.S. service warfighters on the F-35 
program. These gentlemen are my customers, as well as 11 other 
allied nations who depend on the success of the F-35 program. 
As the program executive officer and program director, I work 
for them as well as the taxpayers to ensure that we are 
delivering an affordable, reliable, sustainable, and effective 
F-35 weapon system.
    The F-35 program today is much different and improved than 
it was 5 years ago when I first became the program executive 
officer. Today, the fleet of F-35s has grown to exceed 210 
airplanes and has surpassed 73,000 flight hours.
    The weapon system is considered operational and combat 
ready by both the U.S. Air Force and U.S. Marine Corps. It is 
also forward deployed today in Iwakuni, Japan, for the U.S. 
Marine Corps and operated in Israel and Italy by those F-35 
customers. The three major areas of the program--development, 
production, and sustainment--have made significant and solid 
progress since the last time I appeared before you on this 
committee. Let me quickly address each.
    With respect to development and flight test, we are now 
within a year of completing this phase of the program and 
delivering the full capability of the F-35 as it was envisioned 
in 2001 when this program began. Despite what you might hear, 
the development and flight test program is on track to finish 
within a few months and within the cost caps put in place 6 
years ago in 2011, when the program was re-baselined. We are 
also making a smooth transition from development to a lean 
follow-on modernization program that has incorporated many of 
the lessons learned from the original F-35 program and other 
modernization programs such as the F-22 and the F/A-18 Super 
Hornet.
    However, completing the development program is not without 
risk. I have often said that the mark of a good program is not 
that it has no problems, but rather it discovers problems, 
implements solutions, and improves the weapon system while 
keeping the program on track. I believe we have been doing that 
for years now and will continue to do so.
    I am prepared to discuss, during our Q&A [question and 
answer] some of the challenges and risks we face today moving 
forward on the development program, such as our software; our 
Autonomic Logistics Information System, known as ALIS; mission 
data files; various C-model unique issues; and any other risks 
and challenges you might want me to address.
    As for production, we delivered 46 of 53 airplanes last 
year. We were short on delivery of those airplanes due to a 
problem with peeling and deteriorating insulation inside the F-
35A fuel tanks. The problem is now resolved, with all affected 
aircraft in the field repaired and the aircraft deliveries from 
our production line are recovering. We will be back on 
production schedule by this summer.
    We are also in the middle of the largest ramp-up in the 
program's history, going from 61 aircraft in lot 9 to over 160 
aircraft in lot 13, a nearly threefold increase in just 4 
years.
    I would like also like to thank the Congress for the 
additional 17 F-35s that the services procured in FYs [fiscal 
years] 2015 and 2016 as a result of congressional plus-ups.
    The government/industry team remains laser focused on 
driving the cost of buying F-35s down. We continue to see lot-
over-lot price reductions with the latest lot of aircraft, lot 
10, being about 7\1/2\ percent less expensive than the previous 
lot 9.
    Today, an F-35A model costs approximately $94.5 million. It 
is the first time that an F-35 has been below $100 million to 
purchase. We believe we are on track to continue to reduce the 
price of the F-35 such that in FY 2019, with an engine, 
including all fees, the F-35A model will cost between $80 and 
$85 million.
    As part of this reduction, we have initiated a block-buy 
strategy for our foreign partners and an economic order 
quantity [EOQ] contracting strategy for the U.S. services. I am 
prepared to discuss this strategy with you as there has been 
much misinformation about what this block buy and EOQ strategy 
really is.
    If the strategy is implemented, it will save approximately 
$2 billion over the three lots of airplanes from FY 2018, 2019, 
and 2020.
    Finally, the last major portion of the program, our 
logistics and sustainment area, is rapidly growing and 
accelerating. We are building a capability to globally maintain 
and repair F-35s in the Pacific, European, and North American 
regions. The ramp-up of depot capacity and heavy maintenance 
repair of components, warehousing, and our global supply chain 
is progressing well with all of our allies contributing to this 
global stand-up. We will also be adding 14 new operating 
locations around the world in the next 3 years, making the F-35 
weapon system a truly global capability.
    I am also prepared today to discuss in detail the two tasks 
that the F-35 was directed by Secretary Mattis. The first one 
is a Joint Program Office task to conduct a comprehensive 
review of all affordability initiatives we have implemented 
thus far in the program and to present future cost reduction 
initiatives we intend on implementing across the program in the 
future.
    The second task is primarily a Navy task and it is to 
determine an appropriate, affordable, complementary mix of F-
35Cs and advanced Super Hornets on the Navy's aircraft carriers 
in the future. I look forward to answering your questions about 
these two tasks.
    In summary, the F-35 program is on a good trajectory today. 
The fleet is rapidly expanding and we are flying F-35s in the 
United States, Italy, Japan, and Israel as we speak. The 
development program is nearing completion within the cost and 
schedule boundaries put in place in the 2011 re-baseline. And 
the program is also continuing to successfully ramp up 
production and accelerating a stand-up of our global 
enterprise.
    As always, our number one, overarching priority is to 
continue to drive cost out of this program while we deliver the 
full capability to our warfighters. We will continue to execute 
this program with integrity, discipline, and transparency, and 
I hold myself and my team accountable for the outcomes on this 
program. Our team recognizes the great responsibility we have 
been given to provide the foundation of future U.S. and allied 
fighter capability for decades to come.
    We also recognize that someday, your sons and daughters, 
your grandsons and granddaughters may take this airplane into 
harm's way to defend our freedom and our way of life. It is a 
responsibility we never, ever forget.
    Thank you for the opportunity to discuss the program and I 
look forward to answering your questions.
    [The prepared statement of General Bogdan can be found in 
the Appendix on page 44.]
    Mr. Turner. Thank you.
    General Davis.

 STATEMENT OF LTGEN JON M. DAVIS, USMC, DEPUTY COMMANDANT FOR 
           AVIATION, HEADQUARTERS, U.S. MARINE CORPS

    General Davis. Chairman Turner, Ranking Member Tsongas, 
distinguished members of House Armed Services Subcommittee on 
Tactical Air and Land Forces, and other distinguished members, 
thank you for your continued support. All of us appreciate the 
opportunity to testify on the F-35 Lightning Program.
    I am sure you are aware, the F-35B and the F-35C remain a 
top acquisition priority for the Marine Corps. We can't get 
into those airplanes fast enough.
    You have my statement already printed out. I just returned 
last night from Yuma, Arizona, spent 3 days out there with our 
fleet forces and our NAVAIR [Naval Air Systems Command] team, 
talking about how we improve the readiness of the legacy 
platforms out there and we are making progress out there.
    But I will tell you that, on average, Marine Corps tactical 
aviation is some of the oldest in the Department of Defense, if 
not the oldest. F-18s and Harriers, on average, 22 years old. 
These airplanes have performed brilliantly. We are extracting 
maximum value out of each and every one of them, but they are 
old airplanes. And we intend to extract maximum value, but it 
is getting harder and harder each and every day.
    Also out there in Yuma, that is kind of the epicenter of 
Marine Corps F-35 operations right now, too. And bottom line, 
while that is taking place inside, outside, both day and night, 
the F-35s are overhead flying, training. And I will tell you, 
the pilots and the folks that are working on those airplanes 
and getting into those airplanes know, as I know, and I am 
becoming increasingly convinced, that we have a game changer, a 
war winner on our hands.
    The United States Marine Corps is our Nation's force in 
readiness. We hold that responsibility to be a sacred 
responsibility. When the Nation's least ready, we need to be 
most ready, and that means not just against a low-end threat, 
but against the high-end threat. In an overmatch fight, we are 
convinced, I am convinced, we absolutely positively have to 
have this airplane in numbers as quickly as we can.
    I will tell you that I have been flying Marine Corps 
airplanes--I have been in the Marine Corps for 37 years, flying 
Marine tactical airplanes for 36. I have commanded our Weapons 
School. I have not seen anything like this in the entire 
history of my time. I have flown AV-8s, I have flown F-18s, I 
still occasionally fly the F-5, not very well, but I still fly 
a little bit. This airplane is changing things in a big way, 
whether it is at Red Flag where the Chief of Staff of the Air 
Force says the airplane, F-35B, support of an Air Force 
operation, turned in a decisive effort.
    The exchange rates, I read the blogosphere, 15 to 1, the 
last of Red Flag. I have seen the blogosphere, the retired 
Marine generals writing, that can't be true. I am like, it is 
true. I am not challenging that whatsoever. I see that in the 
last three WTI [Weapons and Tactics Instructor] classes we ran 
at MAWTS-1 [Marine Aviation Weapons and Tactics Squadron One].
    The scenarios that we could never get in before, that our 
airplanes got shot down and, more importantly, because we are 
always going to try to get in there and deliver that bomb for 
the marine on the ground, in simulated exercises we lost a lot 
of airplanes in scenarios that were fourth-generation airplanes 
and putting in both our Prowlers, our Hornets, and our 
Harriers.
    That changed when we brought in fifth-generation airplanes, 
specifically F-35. We are achieving astonishing results in the 
highest threat scenarios and that across the range of military 
operations fight with the F-35. It is changing things in a very 
decisive way. We have taken it and deployed at the Twentynine 
Palms and lived hard, which is what we expect our marines to 
do. We have taken it onboard amphibious ships.
    The last time we decided to see what we could do, we sent 
as many as we could afford to send with a deployment going on 
to Japan, we sent 12 airplanes to aboard the USS America. 
Fantastic, we took out V-22s, AH-1 Zulus and Yankees and 
operated out there for 3 or 4 days. It was seamless and it was 
exceptional and, I mean, a really great effort out there on the 
part of the team.
    Last year we sent airplanes over to the, trans-Atlantic 
across to the United Kingdom. And just in January we sent our 
first operational squadron, VMFA-121, which is the first 
squadron to clear our initial operating capability [IOC], to 
Japan. So that squadron is in Japan now and if you read the 
press reports, they are not only just in Japan, they were at 
Okinawa supporting our marines on the ground and operating out 
there. So they are already operating fifth-generation STOVL 
[short take-off and vertical landing] airplanes in the Pacific, 
really inspiring.
    And the last thing I will tell you, we just had a what we 
call a Marine Division Tactics class down in Beaufort, South 
Carolina. And we had a scenario out there, it was a 20 v. 8, 20 
versus 8, 20 bad guys against 8 good guys; in those 8 good guys 
were 4 Marine F-35Bs. That was interesting; basically the 20 
guys had a very bad day, I will leave it at that. The eight had 
a very good day. They all came home.
    But what was most important, in the debrief, one of the 
pilots talking about all the kills they made, and the majority 
of the kills came from the F-35s, he was very clear, he was an 
amazing presence, he talked about what he did. And when they 
found out who he was, he was a CAT-1 student in our fleet 
replacement squadron, this was his graduation exercise. We have 
brand-new guys coming out of the training pipeline flying this 
airplane that are operating like Marine veterans that have 3 or 
4 years' experience. I have never seen anything like it. I 
thought I would want to tell you about that today. That means 
we have an airplane out here and it is the beginning of its 
life that is going to grow and get more and more capability. I 
can't get those airplanes in the fleet fast enough to replace 
our F-18s and our Harriers.
    And I will look forward to your support and I will answer 
any and all of your questions. Thank you.
    [The prepared statement of General Davis can be found in 
the Appendix on page 75.]
    Mr. Turner. Admiral Miller.

 STATEMENT OF RADM DEWOLFE MILLER, USN, DIRECTOR, AIR WARFARE 
              (OPNAV N98), HEADQUARTERS, U.S. NAVY

    Admiral Miller. Chairman Turner, Ranking Member Tsongas, 
and distinguished members of the subcommittee, thank you for 
the opportunity to appear before you today to discuss how the 
Navy and Marine Corps F-35C, with fifth-generation capabilities 
and fully integrated into our carrier air wings, will meet and 
exceed warfighting needs.
    Along with our Marine Corps and Air Force team, the F-35C 
remains a naval aviation acquisition priority. The F-35C will 
form the backbone of Navy air combat superiority for decades to 
come, complementing the tactical fighter fleet with a dominant, 
multi-role, fifth-generation aircraft capable of projecting 
U.S. power and deterring potential adversaries.
    The carrier air wing of the future must rely on the 
capacity and capabilities of both fourth- and fifth-generation 
aircraft. The F-35C provides unique capabilities that cannot be 
matched by modernizing fourth-generation aircraft.
    Stealth technology and advanced integrated systems enable 
the F-35C to counter rapidly evolving air-to-air and surface-
to-air threats; fifth-generation advancements shift focus from 
kinematics to information collection and dissemination in real-
time battle space, enabling us to break enemy kill chains while 
facilitating our own. Coupled with the proven capabilities and 
capacities of a continually improving and relevant carrier air 
wing, the F-35C greatly enhances a carrier strike group's 
battle space awareness, lethality, and survivability to prevail 
in a high-end conflict.
    The fiscal year 2017 President's budget supports the F-35C 
procurement to complete system development [and] demonstration, 
initial operations test and evaluation, initial operational 
capability, and to transition squadrons on a timeline that 
supports the first operational deployment on USS Carl Vinson in 
fiscal year 2021. The Navy also has a robust sustainment plan 
that supports operating this new aircraft and properly training 
maintenance crews and carrier air wing aviators.
    Ultimately, the F-35C integrated and interoperable in the 
carrier air wing, the carrier strike group of the future will 
be more lethal, survivable, and able to accomplish the entire 
spectrum of mission sets to include immediate response to high-
end threats. The Navy remains dedicated to a capabilities-
focused approach as we evolve the carrier air wing and carrier 
strike group of the future. The dynamic security environment 
requires the speed, endurance, flexibility, and autonomous 
nature of the carrier strike group.
    The Nation needs the tremendous capabilities of the F-35C 
on its carrier flight decks. The aircraft's stealth 
characteristics, long-range combat identification, and ability 
to penetrate threat envelopes, while fusing multiple 
information sources into a coherent picture, will transform the 
joint coalition view of the battlefield. I agree with my 
colleague General Davis, we have already seen it in practice so 
far.
    The F-35C's capability will provide decision superiority to 
the Nation's warfighters to ensure that if deterrence fails, 
the United States can conduct and will conduct decisive combat 
operations to defeat any enemy.
    Thank you again for your continued support and I look 
forward to any and all of your questions.
    [The prepared statement of Admiral Miller can be found in 
the Appendix on page 83.]
    Mr. Turner. General Harris.

  STATEMENT OF LT GEN (SELECT) JERRY D. HARRIS, USAF, DEPUTY 
     CHIEF OF STAFF FOR PLANS, PROGRAMS, AND REQUIREMENTS, 
                  HEADQUARTERS, U.S. AIR FORCE

    General Harris. Chairman Turner, Ranking Member Tsongas, 
and distinguished members of the Tactical Air and Land Forces 
Subcommittee, thank you for the opportunity to continue our 
fifth-generation discussion for fighter capabilities.
    When I spoke to you last at a field hearing in Dayton, we 
talked about the fifth-generation capabilities and now I intend 
to offer to you a glimpse of how the F-35A is performing and 
meeting our Air Force requirements as we continue to develop 
and procure this stealthy fighter.
    Since we last met, the F-35A completed a trip to the United 
Kingdom, and also very recently successfully completed a 
deployment to Nellis Air Force Base and participated in 
Exercise Red Flag-Alaska. While we look forward to the fielding 
of the final system development and demonstration Block 3F 
aircraft, our operational pilots and maintainers at Hill Air 
Force Base are pleased with the F-35A in the Block 3i 
configuration.
    General Carlisle in August of last year declared the unit 
IOC and the team has been performing remarkably well. Even 
though the Block 3i is an interim capability, the performance 
continues to excite the pilots. The pilots I have spoken with 
are pleased with the way the aircraft handles, and the 
destruction of targets, both in the air and on the ground, 
continues to be at rates higher than expected. The maintainers 
continue to produce combat-ready aircraft at impressive levels.
    The team deployed 13 F-35A's and executed 207 of 226 
planned sorties with zero maintenance non-deliveries, and 
maintained greater than a 90 percent mission capable rate. 
Nineteen sorties were mission canceled by the Red Flag staff 
for weather, not due to F-35 limitations. That is simply an 
awesome effort. And as you know, most fighter pilots will tend 
to exaggerate their claims and capabilities, but this morning's 
report with a 15 to 1 kill ratio is actually a little bit off 
the mark. Looking at the numbers, it was 20 to 1. The airplane 
is doing exactly what we need it to do.
    The F-35A fleet is growing and will become a dominant force 
in our fifth-generation arsenal, deterring potential 
adversaries, and assuring both our allies and our partners at 
the same time.
    Thank you for having me back. I look forward to your 
questions.
    [The prepared statement of General Harris can be found in 
the Appendix on page 91.]
    Mr. Turner. Thank you, gentlemen. And thank you for the 
report on the progress that is being made with the F-35.
    As I mentioned in my opening statement, President Trump has 
entered into the discussion on the cost of the F-35 and has 
raised the issue of the F-18.
    General Bogdan, you have spoken to the President directly, 
and several times, on this issue. We all know that the F-35 can 
do the job of the F-18. The F-18 cannot do the job of the F-35, 
but you don't always need an F-35 to do the job. So the 
question is to that mix and how we proceed. It is an issue that 
I know, General Bogdan, you have been involved in and Admiral 
Miller. Secretary of Defense Mattis has tasked you and others 
with the prospects of putting together a report as to that 
comparison.
    As we look to that issue, it certainly goes to the 
operational capabilities of the F-35, the environment that the 
F-35 and the F-18 enter into, but we certainly want to 
underscore the need for ensuring that we do acquire all of the 
F-35s that we need and that we have the F-18 capability.
    General Bogdan, do you want to tell us how those 
conversations go? And I just want to interject for a minute. 
There has been some media reports that the President has called 
you directly and that, you know, that is breaking the chain of 
command. I know, having spoken to you personally, you are 
certainly up to that task, and I am glad that he picks up the 
phone and calls you. I will look forward to your answer.
    General Bogdan. Thank you, Mr. Chairman, and thank you for 
giving me an opportunity to address this directly.
    The first time I met the President-elect was in mid 
December at Mar-a-Lago in Florida with a number of other senior 
DOD military officers. That discussion centered around the F-35 
and the Presidential aircraft. Following that meeting, I had 
two follow-up phone conversations with the President-elect; one 
of them was on the 9th of January, one of them was on the 17th 
of January.
    On the 9th of January, that phone call was just myself and 
President-elect Trump. On the 17th of January, the phone call 
was myself, President-elect Trump, and Mr. Muilenburg, the CEO 
[chief executive officer] of Boeing. It is important to 
understand that in the discussions that we had were all pre-
decisional, there were no decisions made during those 
conversations, and it was my belief that President-elect Trump, 
at the time, was attempting to gain more information about the 
F-35 and its affordability, trying to gain more information 
about the F-35's capabilities relative to the Super Hornet, and 
to gain more information about the Presidential aircraft 
replacement program.
    In fact, the questions that he asked and the answers that I 
gave were the foundation of the tasks that came out from 
Secretary Mattis 2 weeks ago, which are ongoing right now. The 
first of those being, what are you doing to ensure the 
affordability of the F-35 now and in the future, and how can we 
ensure that the taxpayers are getting a best value for their 
dollar.
    And the second of those tasks was a Navy task about the 
complementary mix of Super Hornets, advanced Super Hornets, and 
F-35Cs on the deck of an aircraft carrier, where he was asking 
for a comparison of the capabilities. Those tasks are ongoing, 
they are not completed yet. We have yet to report the answers 
to the Secretary of Defense. I am sure as soon as we report 
those tasks to him, he will then relay them to the appropriate 
folks in the administration.
    Mr. Turner. Admiral Miller, great segue then to you. I know 
from General Bogdan you can't report on the outcome, but you 
can give us some understanding of the elements that are being 
looked at. You know, our concern is one of ensuring that in 
having that complementary mix that we don't disadvantage 
ourselves, that we don't underestimate what future challenges 
will be and diminish what our overall assets will be in fighter 
aircraft. Could you give us some understanding of what elements 
that you are looking at?
    Admiral Miller. Yes, sir. It is interesting when you see 
how the task came and you hear the word ``competing,'' that is 
not how the Navy views it. The Navy views our F-18 Super Hornet 
and its fourth-gen [generation] capacity and the capabilities 
that come with the exquisite F-35C as complementary.
    In our view and per our 30-year aviation plan is that we 
end up with a carrier air wing mix, we grow to a mix that 
provides two squadrons of F-35Cs and two squadrons of Super 
Hornets. We feel that that mix, that complementary capacity of 
the Super Hornet and the capability of the F-35C is going to 
handle us well in the near term, and as we continue to grow 
that capability into the far term.
    Now, both of these aircraft, just like every weapon system 
that we always have, continues to have to have a modernization 
program, so the F-35C follow-on modernization program addresses 
that for the F-35. F-18s are not unique in that regard, they 
also have a modernization effort, so just as do our ships and 
existing airplanes within the air wing.
    Chairman Turner, you mentioned earlier about the readiness 
hearings where the vice chiefs were out and you see the extent 
where we sit right now. We have a shortfall in the Navy on our 
carrier flight decks, in our strike fighter, we call it strike 
fighter inventory management. So that mix and what we need to 
buy now and how we portray that throughout the FYDP [Future 
Years Defense Program] and in the following years will be 
something that we are going to take seriously. So we have to 
address our near-term issues as well as make sure that our 
warfighting needs are met.
    Mr. Turner. Thank you. Well, this is a program that 
everyone has looked at both issues of cost and time.
    General Bogdan, this program, since 2010, has been on-cost 
and on-schedule. We are, however, looking forward and in doing 
so, seeing that we have concerns once again of increased costs 
and increased time. We look at finishing the program. We 
understand that the director of operational test and evaluation 
indicated that up to a billion dollars of additional funding 
could be required to complete the F-35 system design and 
development [SDD], which is currently scheduled to be completed 
in October of this year.
    In addition, we looked at initial operating tests and 
evaluations. The belief was that the F-35 would be operational 
August 2017; now we look at those dates, might slip 2018 or 
even early 2019. General Bogdan, can you tell us where we are 
and what needs to be done so we can get back on track.
    General Bogdan. Thank you, Mr. Chairman. The portrayal that 
we need another billion dollars to finish the SDD program is 
inaccurate. Today, as it stands, the budget for the SDD program 
in 2017, 2018, 2019, and a very small amount in 2020 is short 
about $532 million. And let me explain where that $532 million 
shortfall comes from.
    First, in 2014, the Department of Defense removed $100 
million of RDT&E [research, development, test, and evaluation] 
funding from the F-35 program to pay for higher priority things 
in the Department. That money was never paid back. So that 
would be $100 million that we would just expect to get paid 
back just to get us to the baseline budget we have.
    There were also $165 million worth of new requirements that 
have been added to the program since 2013. Some of those 
include the need for a deployable ALIS. Some of them include 
some cybersecurity enhancements we needed to make to our off-
board systems, like our mission planning system, as well as the 
airplane. Those were mandated from OSD [Office of the Secretary 
of Defense] and from the cybersecurity folks.
    If you add those requirements, which were not paid for at 
the time we executed them, that is another $165 million of 
added requirements that normally would have been paid for in 
the 2013, 2014, 2015 timeframe when we were executing them, 
that we are not because the Department asked us at that time to 
use management reserve to pay for those added requirements. 
That adds up to $265 million.
    The remaining $267 million, to get you to 532, is the 
result of unexpected results we have had in our flight testing. 
We had an engine fire back 2\1/2\ years ago and we had to fix 
the engine. We had 3i software stability issues last year that 
required us to go in and fix that stability. We have had 
problems with the 3i and 3F software in terms of clutter and 
ghosting and things like that; we had to fix those issues, too. 
That is the added $267 million, totaling the 532 that I need to 
finish SDD.
    But here is the real important point about this: Every 
penny of that $532 million is coming from inside the F-35 
program with funding that I already have. It comes from 
management reserve, it comes from fee that our industry 
partners have not earned and will not earn, and it comes from 
negotiated saving that we have when we negotiate contracts in 
excess of the budget that we have been given.
    So from our warfighters' perspective, I am not going back 
and asking them for a penny more than what they have already 
put into the program because the direction from the Department 
has been, General Bogdan, you will find the money for that $532 
million inside the program. And we have.
    Mr. Turner. General Bogdan, when you just mentioned 2014 
and you lost dollars, we have had an environment of defense 
cuts that have affected modernization and also has affected 
readiness, sequestration being one of the big effects of that 
that has had devastating effects on our military. But I want to 
ask you for a moment if you could embellish the discussion that 
you just had on defense cuts, because so many times we get into 
the false discussion of, well, if the prices are high, we could 
just buy less. But the reality is, is that buying less means 
that the costs go up. I mean, you have a fixed cost base that 
you have to maintain for the production line and equipment. And 
the marginal cost, again, the additional planes that you buy, 
actually overall lowers the cost.
    Could you give us your thoughts on that, so that we can 
have people understand a little bit about what your challenges 
are?
    General Bogdan. Yes, sir. What you were mentioning there is 
a phenomenon in the acquisition world known as a death spiral. 
And it goes something like this. If I am going to buy a certain 
number of airplanes and each of those airplanes costs a certain 
amount of money and we budget for that, if budget is removed so 
you cannot buy that many airplanes and you have to buy less 
airplanes, the price of each of those fewer airplanes goes up. 
And then the future airplanes that you are going to buy also 
goes up, so the budget that you had doesn't go as far.
    And that death spiral gets you to a point where ever-
decreasing budgets result in ever-decreasing quantities, which 
result in ever-increasing unit prices on the airplane. And you 
get to a point where you are buying a whole lot of airplanes, I 
mean, very few airplanes for a whole lot of money. This program 
has not experienced that yet and will not experience that, 
because if we continue on the ramp rate that the warfighters 
need, the price of the airplane will continue to come down.
    But when you take money away from the production program, 
every airplane in the future, the price then goes up on this 
program.
    Mr. Turner. Thank you, General. I think that that is a very 
important part of the discussion. As we look at the mix of the 
F-35 and the F-18, we don't want to say, we will just buy more 
18s because then we can lower the cost on the F-35. Because in 
the end, if you reduce the production of F-35, you could result 
in spending more on both and getting less.
    With that, I will turn to Niki Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And I appreciate the testimony today just highlighting the 
extraordinary potential capabilities of the F-35 and how it is 
a game changer. But we all still wrestle with the cost and that 
is particularly true in the constrained environments in which 
we have been operating.
    And General Bogdan, I appreciate that as there are 
additional costs that have been identified, and you reference 
$532 million that are available so that it isn't going to 
require any new funding for the SDD phase.
    I just wonder, if that $532 million comes from inside the 
program, does that mean you routinely have a billion, half-a-
billion dollars, just extra money available? And what else 
could we do with that money were this SDD phase didn't need 
these additional funds? Could we not buy more planes?
    General Bogdan. It is a great question, ma'am. The $265 
million of the 532 was simply payback for new requirements and, 
like I said, for money that was taken away. The $267 million, 
clearly, if I can find that money inside the program and I 
didn't have to apply it to finish the SDD program, it could 
have been used for something else.
    The normal procedure that I have when we do negotiate 
better contracts and when we do have fee that industry hasn't 
earned is, I turn to the warfighters and to the services and I 
say to them, what would you like me to do with that money? 
Would you like me to buy more airplanes, would you like me to 
keep it inside the program to pay for new requirements, or 
would you like me to give that money back so you can use it in 
other parts of your defense budget not F-35 related?
    In this instance, when I identified the funds inside, we 
went back to the services and we went back to the Department, 
and the decision was made leave the money inside the program so 
that you can finish the SDD program. But you are correct, 
ma'am, that extra money could be used for other things. And 
unfortunately, it has to be used to complete SDD, the 
development program, because we had unexpected results, engine 
fires and things that we didn't expect to have happen that we 
simply needed to fix.
    Ms. Tsongas. But it certainly does highlight that there are 
large sums available when needed within the program. And I 
think my question really is about that fact, but I would 
actually like to go on to something else.
    You have referenced that the $1 billion estimate of 
potential future costs is inaccurate, and I am just curious how 
confident you are that you won't be coming back here in the 
next round, again suddenly the numbers have moved. How 
confident are you?
    General Bogdan. Ma'am, I am very confident. I have been 
running this program for 5 years now, and I have never once 
gone back to the services or to you to ask for more money. This 
is the first time, as we get near the end of SDD, where I have 
shown and been transparent about a budget shortfall.
    However, given the fact that we negotiate large lots of 
airplanes, for example lot 11 is going to be somewhere in the 
order of above $10 billion worth, if we can negotiate better 
deals for the price of those airplanes, then that money that I 
save in negotiating is the money that I will turn to the 
services and turn to the Department and ask, what would you 
like me to do with that?
    Ms. Tsongas. Well, I appreciate your confidence. I would 
like to ask another question now. The director of operational 
test and evaluation estimates that a significant delay in 
starting initial operational test and evaluation due to delays 
in getting aircraft modified and upgraded to the required 
standards.
    In your written testimony, you mention a desire to start 
initial operational tests and evaluation earlier than currently 
planned, but with fewer test aircraft, and you cite several 
reasons for wanting to do that. A longstanding testing standard 
for operational tests are to ensure that fully capable 
production-representative aircraft are used, similar to those 
that will be operated by frontline service members.
    If DOD does go forward with your plan, it appears that the 
testing would not be done with the previously agreed upon 
number of aircraft and with aircraft that are not fully 
upgraded with the latest combat capabilities. Do you agree that 
the testing will tell us all more if it is done as currently 
planned rather than taking shortcuts? Why cut corners?
    General Bogdan. Ma'am, I can assure you that my program 
office and I would never ever cut corners when it comes to 
delivering combat capability, because young men and women are 
going to put their lives on the line for that. However, having 
said that, it is a true statement that the original program of 
record was supposed to start initial operational testing in 
August 2017.
    One of the requirements to start that full operational 
testing [OT] was to have 23 production-representative F-35s 
ready to go. I will not have 23 full production-representative 
airplanes ready to go in August. In fact, by February of 2018, 
I will only have 18 of those airplanes in a fully production-
representative configuration. What I have asked the OT 
community to look at is an incremental start to operational 
testing, with those 18 airplanes and then over the next few 
months, add the additional airplanes to get them to the 23.
    So the 18 airplanes that they would incrementally start OT 
with, would be fully production representative and would be 
fully representative of the combat capability of the airplane. 
There are a number of reasons why incrementally starting makes 
sense from a program perspective. One, every 6 months I delay 
OT costs another $30 million. So it saves the Department and 
the enterprise money.
    Second, the sooner I can get the feedback from the 
operational testers, who are the experts, the faster I can fix 
any problems that they find. And given that we are producing 
over a hundred airplanes a year on the production line, any 
time I can find something wrong with the airplane and fix it 
sooner means I can cut that into the production line quicker 
and I am not going to be producing airplanes that later on have 
to be retrofitted and fixed.
    It is not my choice to start OT. What I do is I provide the 
resources to the OT community and they decide. All I have asked 
them to do is take a look at a way to potentially incrementally 
begin operational test, not such that at the end of OT or in 
the middle of OT they wouldn't have everything they need. But 
just to start it a little bit sooner with less than the full 
complement of airplanes.
    Ms. Tsongas. But this program does have a long history of 
discovering problems in developmental testing that has added 
many years to the program. So I just think it makes more sense 
to be more conservative when it comes to operational testing.
    And with that, I yield back.
    Mr. Turner. To our vice chair, Paul Cook.
    Mr. Cook. Thank you very much, Mr. Chair.
    I had the pleasure of visiting Luke Air Force Base out in 
the desert. Now, I came in there and I had a number of 
questions which have been addressed. One was the helmet, the 
computer, the flight suit, the whole works, the cost overruns. 
And I got a chance to talk to a lot of the pilots. And I was 
really, really impressed with the pilots. The pilots, you know, 
I don't want to go into it, they actually were nice to me. Here 
is an infantry guy, they explained the acronyms, they used one-
syllable words. It was really good. And then--got a great 
feeling.
    The only hang-up I had was talking to the maintenance 
folks. And I am scared to death of the maintenance trail, just 
like I am with the Hornets and the problems and everything else 
like that.
    General Davis, I think you made the point about, you know, 
the fleet is getting old, old planes. The chairman and I were 
out in Twentynine Palms, we were watching tanks, we were 
watching Harriers. And the planes, they were not as old as I 
was, but they are getting close. And every time I start talking 
maintenance, I get, you know, kind of a hesitation whether we 
are going to have this and I--the boneyards and I won't go 
through the whole thing. I want to get that feeling that okay--
I am committed to the F-35, but God almighty we got to have 
everything in place to make sure that that maintenance trail of 
parts and everything else so that we don't have a system that 
is C4 or is C3 [degraded readiness]. Can you address that, 
anybody? General Bogdan.
    General Davis. Hey, sir, thanks for visiting the Luke and 
thanks for visiting Twentynine Palms, God's country. And in my 
world, the aviators better be nice to the infantry officers or 
we will be without a job. That is why we exist, you know that 
in the Marine Corps.
    Mr. Cook. How come there is no band then on the front of 
the plane then? No, okay.
    General Davis. Yes, sir, it is right there. It is all good. 
Hey, we are, you know, we got underfunded in the spares account 
in this airplane early on and we are living that right now. So 
we have actually basically invested forward, tried to get 
additional help. We have asked for the spare parts to be put 
into the unfunded priority list to get that back up to speed.
    This airplane is performing very well if it has got the 
spare parts and if there is no spare part for an airplane when 
it is down, whether it is Air Force, Navy, or Marine Corps, the 
marines, airmen, and the sailors will get it but they will take 
it off another airplane. That is debilitating, that is the 
wrong way to do business, so the spares accounts need to be 
funded. I think you need to hold us to account to make sure 
that they are. That the airplane comes in, the spares come in 
there as well.
    And I think we talked about how impressed we are with the 
pilots. You know, I have got two, three squadrons right now of 
F-35s. The training squadron's got British Royal Navy/Royal Air 
Force maintainers in there as well, they are phenomenal.
    Mr. Cook. General, since we are at the subject of 
Twentynine Palms, the expeditionary airfield out there, I have 
asked this question three times, but the F-35 is going to 
operate off that field which is very austere, it is sand, it is 
the dreaded FOD [foreign object damage], it is everything else.
    And I have referred in previous committees, be it at Camp 
Lejeune, or ``Lejeurne'' years ago, Lyman Road, you had to have 
a street sweeper to make sure there was no dust on the road. 
That is an austere combat environment. And is that F-35 going 
to be able to operate out of that when the wind and the dirt 
and the sand and everything else, just like it is in the Middle 
East?
    General Davis. Sir, we did. We went up there and operated, 
did very well. I think that what we are finding right now is 
that the F-35B, with this engine, is less susceptible to FOD 
than our Harriers are. We have flown the F-35B now 26,000 
hours. We have been up there to the strip, we have been to the 
estuary strips out there. We do hot combat loads out of Laguna 
Air Field and flying out of Yuma which, historically, is a very 
high FOD environment for our Harriers. We have had four FOD 
events in 26,000 flight hours. That is .00016; that is really 
low. So I think we need to be careful about where we go and 
what we do, but we are learning.
    Like one of the things we learned is, we would come into 
the pad, like we did in the Harrier, 100 feet across the pad 
and 100 feet in and let down. We are crossing now at 150, so we 
are learning as we go. So we are adapting our TTPs a bit, our 
tactics, techniques, and procedures, but we are finding a much 
lower prevalence for FOD on this airplane than we did in the 
Harrier.
    Again, I think it is we are going to operate like the 
Marine Corps does with one foot ashore and one foot at sea and 
we haven't had any FOD events in any of our shipboard 
environments with the F-35B to date.
    Mr. Cook. Thank you, General. I yield back.
    Mr. Turner. Jacky Rosen.
    Ms. Rosen. Thank you, Mr. Chairman. And thank you all for 
being here today and thank you for your service.
    You know, I represent a district in southern Nevada, it is 
less than a dozen miles away from Nellis Air Force Base which, 
of course, is home to the U.S. Air Force Warfare Center, the 
largest advanced air combat training mission in the world. And 
one of Nellis' primary missions includes the testing of the 
Nation's most advanced aircraft and weapons systems.
    Earlier this month, we were privileged to have the F-35, 
the advanced Red Flag exercises right there at Nellis. It is 
great for the people who live there. We see the planes flying 
around; it gives everybody a great chance to see some of the 
things you are doing. But I would like you to discuss how the 
F-35 performed in these exercises, what level of confidence you 
have in the test.
    And as a former systems analyst and computer programmer, I 
am specifically concerned about your software capabilities, its 
susceptibilities to hackers and their ability to disrupt or 
disable an aircraft. Thank you.
    Mr. Turner. Yes, sir.
    General Harris. Ma'am, thank you for the support for 
Nellis. It is an awesome location and certainly one that the 
Air Force enjoys to talk about, because there is so much going 
on that is on this high-end environment. And the exercise Red 
Flag that I spoke at, that the squadron deployed to, they 
performed extremely well. The maintenance was not an issue. The 
airplanes went out and as I said, the pilots were excited.
    They had 145 air-to-air kills, which is the first time the 
F-35A has participated in a Red Flag, versus 7 losses. And all 
of those losses were within visual environment, in that, it 
means that they weren't seen on the radar, they were just seen 
passing by. And the way we run our Red Flags, because this was 
a high-end Red Flag, there were significantly more adversaries 
than there typically are and these adversaries were employing 
electronic countermeasures and had advanced tactics in an 
integrated air defense. So not just the air, but also the 
threats on the ground.
    And the F-35 is one of the few, only fifth-generation-type 
airplane that can participate and fly inside of those threat 
environments. We would normally build an entire package of 
fourth-gen fighters to try and attack one of these sites. Yet 
the F-35 was able to operate inside of those threats and had 
significant successes. They employed 51 simulated weapons 
against those SAM [surface-to-air-missile] sites with the 
success of killing 49 of them throughout the exercise, which is 
a huge number, much better than what we would have done in our 
fourth gen. And they were 92 percent successful on their 
heavyweight weapons delivery, which is far exceeding where we 
expected to be this early in the development phase. So it is 
going well.
    Ms. Rosen. Thank you.
    General Bogdan. Ma'am, to address your question about the 
software and the vulnerability, I would like to have you think 
of the weapon system in two pieces.
    The first piece is the airplane itself. I can assure you, 
and we can't talk about it here very much, but I can assure you 
that the ability of this airplane to withstand software 
vulnerabilities from the airplane perspective is unmatched in 
the Department of Defense.
    We knew when we started designing this airplane in 2001 it 
would be exported to other nations and other places. So we 
built in the special ways to protect the airplane. I have very, 
very, very little concern about the airplane itself.
    I have a much greater concern about what we call the off-
board systems, the maintenance system and the mission planning 
system, because those systems connect to other networks in DOD 
and with our partners and all of those networks become 
vulnerable.
    But what I will tell you is, we have undergone over 150 
vulnerability and penetration tests on our maintenance system 
and on our off-board mission planning system. And we found some 
things, and we are fixing them.
    Some of that money I talked about that I had to spend 
extra, goes to the very heart of the cybersecurity issues that 
we have discovered that we have to improve for our off-board 
systems. But what I can tell you is, this is not something that 
the Department is taking lightly. We have the best experts in 
the Department trying to penetrate the system and showing us 
how to fix it. And we are in the process of fixing it. And in 
another forum, ma'am, I would like to be able to show you and 
tell you a little more about that.
    Ms. Rosen. Thank you, I look forward to that. And I yield 
back my time. Thank you.
    Mr. Turner. Martha McSally.
    Ms. McSally. Thank you, Mr. Chairman. Thank you, Gentlemen, 
for your testimony.
    I was at Heritage Flight at Davis-Monthan this weekend. 
Climbed up the ladder of the F-35, talked to the pilots and 
maintenance. And it was great to have it there. It is an 
amazing capability that we do need--fifth-generation fighter, 
as fast as possible, as you have all testified.
    My focus, as you all know, is on the low end of the 
spectrum and it replacing CAS [close air support] and combat 
search and rescue capabilities, where you need continuous 
coverage, loiter time, lethality, survivability from small 
arms, and those types of things. One of the important 
capabilities for that is a gun.
    And so I have seen in some of the reports some challenges 
with the accuracy of the gun, the gun sight. So, General 
Bogdan, can you give an update on what is going on with the gun 
and testing and the way ahead?
    General Bogdan. Yes, ma'am, we are in the process of 
qualifying both guns on the A model, which is an internal gun, 
and on the B and the C model, it is a potted gun on the center 
line of the airplane. We have done ground testing, we have done 
in-flight testing and there are fundamentally two issues that 
we have to address in the coming months of development.
    The first of those being, on the A model, when you shot the 
gun because it is off-center from the nose of the airplane, it 
creates a yaw. And as soon as the gun is shot, the nose of the 
airplane moves. And you know, ma'am, as an experienced fighter 
pilot, if you want to put the bullets on the target, you need 
to keep the nose steady.
    Ms. McSally. Exactly.
    General Bogdan. We know what the problem is, we have the 
software and flight control fixes in place and we are testing 
those as we speak. We will let you know if we need to continue 
to evolve the software and the flight controls to improve it. 
But we know what that problem is and we know how to fix it.
    The second issue we have is with the heads-up display in 
the helmet; we don't have a fixed heads-up display. And, when 
you are aiming, and you would know this, I will keep it simple, 
the pipper, which is the little aiming reticle used to put on 
the target for where you want the bullets to hit, has to be 
fairly steady. And today, with the movement of the helmet and 
the movement of the airplane, that pipper is moving around too 
much.
    Ms. McSally. Right.
    General Bogdan. We understand that problem also. We 
understand the feedback loop between the airplane's motion and 
what is going on with the helmet. So we have those software 
fixes coded and in the airplane. Whether they prove to be 
sufficient such that the gun can be fired accurately remains to 
be seen. Those tests happen this spring and this summer. And we 
will let you know that.
    But you are right, we have encountered some issues with the 
gun and we need to improve those.
    Ms. McSally. And there are also issues with moving targets, 
as I understand, and the ability to self-liaise versus buddy-
liaise. And as you know, on a continuous CAS scenario, you are 
often yo-yoing the tanker as a Sandy [combat search and rescue] 
or a flight lead. So what is the status of that?
    General Bogdan. So I will just briefly talk about that and 
maybe let my warfighting brothers here discuss it. The original 
capability to hit a moving target on this airplane was embodied 
in a weapon that is no longer allowed to be used in our 
inventory. So we did have a capability that was on the books to 
hit moving targets. And when that weapon was removed from the 
U.S. inventory for treaty reasons, we lacked the ability to hit 
a moving target until our follow-on modernization program, 
where we will put in a moving target tracking capability with 
our targeting system.
    In the interim, the Air Force and the Marine Corps have 
come to us and said in the meantime between now and about 2022 
or 2023, with that moving target capability, we have another 
weapon that we would like you to introduce on the airplane. I 
am going to leave that with----
    Ms. McSally. Yes, I am familiar with that. And I appreciate 
it. We can follow up on that later. Thanks for the update.
    My last question is to General Harris. And I agree what 
Admiral Miller said about the complementary focus of the 
inventory. And we have had many discussions about it is not the 
F-35 versus the A-10. I think we need both those capabilities 
in order to have full-spectrum operations. We have included in 
the NDAA [National Defense Authorization Act] a fly-off for the 
F-35 and the A-10 as part of the testing and evaluation.
    And it seems the Air Force has made public statements that 
the A-10 is going to stick around for a while and maybe there 
would be a follow-on light attack aircraft. Is there any 
discussion to remove the A-10, replacement of the A-10 from the 
requirements document and just let the F-35 off the hook for 
that requirement? That would save resources, that would let the 
vendor off the hook and we would be able to move forward to 
have a complementary inventory of the F-35 and the A-10 or the 
follow-on to the A-10.
    General Harris. Yes, ma'am that is a great question, thank 
you. I would expect that the F-35 is still going to be held to 
the same higher requirement of being able to do CAS as a 
mission. Because the Air Force feels that our multi-role 
fighter of the future needs to be able to do that.
    Yes, we have determined that we are going to keep the A-10 
and some other fourth-gen fighters for the next decades based 
on our F-35 buy rates. So we have the CAS as a mission and we 
expect all of our air-to-ground type airplanes to be able to--
--
    Ms. McSally. And I agree CAS is a mission in the 
environment that it needs to operate in. But I think, again, 
removing that specific requirement of replacing the A-10 or in 
the low end of the spectrum is something I would really like to 
follow up with the Air Force on. It would save some resources 
and allow us to move forward in a complementary way.
    And I am out of time, so thanks, Gentlemen.
    General Davis. Chairman, if I could, I would like, as a 
marine, our bread and butter is close air support, I would like 
to answer that, ma'am if you've got a second.
    I am a career air pilot, so I am a--and I would actually 
challenge the F designation on the F-35. This is an F, it is an 
A for an attack, it is also electronic warfare. And we are 
seeing that. Our weapons school and our training range there is 
a small portion of that that is the fighter mission, it is a 
lot of the attack.
    What I have found, it is different than the A-10 and the 
Harrier in that using the sensors on the airplane we have to do 
close air support. What I have got now in this airplane, what 
we have now as a nation in this airplane, is there is no place 
where my soldiers or sailors or airmen or marines are that we 
can't do close air support.
    As you will see in the weapons school, to do CAS and be 
effective at CAS, you have got to have air superiority or at 
least localized air superiority. This airplane allows you to do 
that in one package. We are doing fighter shots and bomb 
delivery at the same time. The other thing we are doing is 
through the weather with the APG-81. It is a picture-quality 
target view for the pilots.
    And so we had a group out there that was trying to do close 
air support in North Carolina the other day. And they are out 
there flying and the forward air controller says the weather 
has moved in, I think we have to knock this off and [they] said 
hey, we see the target, let us go.
    Ms. McSally. And General, I couldn't agree with you more, I 
know I am way over at time, we need that capability, it is 
amazing. But we also need to be able to stay on station more 
than 20 to 30 minutes, have more than 180 bullets, have more 
than 2 bombs on station and be able to survive a direct hit. So 
we need both, from my perspective, but thank you.
    Mr. Turner. Well, Representative McSally, I want to thank 
you for your tireless effort to ensure that we have a close air 
support capability and your advocacy for the A-10. It is 
incredibly important that you bring your expertise, so thank 
you for that.
    Turning to Mr. Carbajal.
    Mr. Carbajal. Thank you, Chairman Turner and Ranking Member 
Tsongas. Thank you to all the witnesses for coming here today.
    General Bogdan, I would like to focus on the issue of how 
we are planning to manage the follow-on modernization program 
known as Block 4. It is my understanding, DOD will not manage 
Block 4 as a separate and distinct acquisition program, despite 
it being a major acquisition program with the cost tag of 
almost $3 billion over the next 6 years. This is of great 
concern considering this program has faced significant cost and 
schedule overruns and the cost for this program is now reaching 
$400 billion.
    The GAO [Government Accountability Office] has stated by 
managing Block 4 as a separate existing baseline, it will not 
be subject to statutory regulatory oversight requirements. It 
does not seem prudent for us to not subject this program to the 
highest degree of oversight and accountability.
    General Bogdan, can you help me understand why the 
Department is against establishing Block 4 as a separate 
acquisition program?
    General Bogdan. Thank you for that question, Congressman. I 
will try and be as clear as I can about it. The Department's 
decision not to create a separate program for the follow-on 
modernization program has nothing to do with us not wanting to 
be absolutely transparent in what is going on in that program. 
It has to do with the administrative burden that is placed on 
starting a new program versus continuing a previous program and 
adding the modernization program onto it.
    All of the documentation, and there are over a 100 
documents that go along with starting a new acquisition 
program, all have to be redone and re-validated and re-signed 
when you start a new program. That administrative burden costs 
millions of dollars and takes months and months and months to 
get through the bureaucracy. That is not acquisition reform in 
my mind.
    What we have told the Congress we would do, and I will 
stand here today and tell you again, that when we start the 
follow-on modernization program it will be a separate contract, 
it will have separate earned value management. We will watch it 
and monitor it as a separate program in our SAR [selected 
acquisition reports] reports to you, and we will include in 
those SAR reports a separate baseline of the schedule and the 
cost and the performance of the program as if it were a 
separate program, just without the moniker of it being a 
separate program because of that administrative burden.
    I have worked with the defense committees and your staffs 
to make sure that your equities in oversight are kept when we 
do this. Our promise to you is that we will be as transparent 
as if it were a separate program because it is billions of 
dollars. And it is your responsibility to make sure that we are 
spending those taxpayers' dollars wisely.
    So my promise to you, Congressman, is when we set this 
program up we will set it up with separate reporting, with 
separate earned value management, with separate SAR reporting, 
and we will provide the Congress with all the transparency and 
oversight that you would require as if it were a separate 
program. We just don't want the DOD's administrative burden of 
a new program because that will add 6 months to a year to get 
started and tens of millions of dollars.
    Mr. Carbajal. Just to conclude, as a new Member of 
Congress, I am informed that DOD is consistently tardy in 
getting information timely to Congress. How will you ensure 
that timely information is provided to Congress despite that 
infamous reputation that DOD has?
    General Bogdan. Congressman, what I will tell you is if it 
is the desire of this defense committee or any of the other 
defense committees to get monthly updates, quarterly updates of 
our earned value and our cost schedule performance progress on 
the system, we will do that. We will do that. Instead of the 
annual selected acquisition report, which comes out once a 
year, we would more than be willing to provide that data to 
your staffs or to you on whatever frequency you would like, 
sir.
    Mr. Carbajal. Thank you. It is just that having served in 
the Marine Corps, timelines were very important. So when I hear 
this about DOD it kind of blows my mind.
    General Bogdan. Sir, I will tell you having the program 
office here in DC, and me being able to come up here and see 
you and the defense committees, makes that delay in the 
information flow a lot shorter, much to my chagrin sometimes. 
But I will tell you that our promise is that we will be as 
transparent as we possibly can because we do understand the 
oversight role that your committee and the other committees 
have.
    Mr. Carbajal. Thank you.
    Mr. Turner. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman. And thank you all for 
your service and for being here.
    I very proudly represent the warfighters who serve at Eglin 
Air Force Base in northwest Florida. And we are so proud to 
have the F-35 beddown there. We have got plenty of ramp space 
for more hopefully in the future. And I also am very proud to 
represent the warfighters who are stationed at NAS [Naval Air 
Station] Pensacola.
    And in my community, we know very well what it means to 
lose a pilot. We know the impact it has on the warfighters, on 
family members, and on the community at large. And so I was 
hoping, General Bogdan, that you could speak to the 
survivability analysis as we look at the F-35 and the F-18. 
Perhaps you could illuminate what some of the unique 
survivability features are that we can discuss in this setting 
for the 35.
    And then, do you have an opinion that you can share now as 
to the relative survivability for pilots in the 35 to the F-18?
    General Bogdan. Thank you, Congressman. I will take the 
first part of that question. And then I am going to defer to my 
warfighters to give you some specific examples of what has gone 
on in some of the exercises that they have seen where their 
pilots come back and tell them how survivable this airplane is.
    So the F-35 itself is survivable across a full spectrum. 
And in order to shoot down an airplane you have got to do a lot 
of things, okay? The first thing you have got to do is you have 
got to find it, okay? The second thing you have got to do after 
you find it is you have got to fix it in space so you know 
where it is. The next thing you have got to do is you have got 
to track it, so you have got to know where it is going.
    The next thing you have got to do after that, is you have 
got to target it, meaning you have got to be able to know where 
it is going very, very quickly. And then finally, you have to 
put a weapon on it, whether it is a weapon that is shot from 
the air or from the ground. We call that the kill chain.
    The F-35 can attack every point in that kill chain to 
remain survivable. It is not just about stealth. The stealth 
portion is the upfront part of that where it is hard to find it 
and fix it in space. But there are other things on this 
airplane, including electronic warfare, including other 
weapons, including information that other airplanes can give to 
you that at any point in that kill chain, it can be successful 
in stopping you from shooting down the airplane.
    So it is just not about the stealth. It is about the fusion 
of the information, it is about the electronic warfare, it is 
about our countermeasures in the endgame if somebody does shoot 
something at the airplane. So the airplane is very, very 
survivable in almost all environments with most threats.
    Now I will let my warfighter friends tell you about their 
experiences.
    General Davis. That's good. I will tell you its 
survivability. It is not just the F-35 aviator, but it is also 
everybody that they are associated with, that--we don't just 
have airplanes just to have airplanes. We support folks on the 
ground, we support our folks fighting ships in any clime and 
place. I will tell you that this airplane is giving our pilots 
a decisive advantage.
    He talked about the 20 to 0, the 20 to 1, the 24 to 0 that 
we have been enjoying out there at the weapons school. The zero 
means we are not losing these aviators. And it is not just a 
fighter threat, it is a very high-end SAM threat, which in days 
gone by would have been we would call it prohibitive 
interference.
    And I ran a drill when I was a weapons CO [commanding 
officer], school CO in Yuma, we lost half the fleet and we 
didn't hit any targets. So in a simulation that is everybody 
comes back with a long face, talks about how bad the day was. 
In the real world, they are not coming back. So this is a very 
survivable airplane. I mean, incredible.
    The analogy they talked about and just what General Bogdan 
talked about, in days gone by when in my youth we did it was 
almost like a football game, every player had their role, 
running backs, quarterbacks, linebackers, tailbacks. This 
airplane is more like a soccer match. Everybody has the 
opportunity be the killer. Everybody sees, everybody shares. 
And frankly. every exercise, whether it is Air Force, the 
Marine Corps, whoever is flying this airplane, embedded in a 
large package, it makes everybody else more survivable. The 
next WTI we are going to guide for a Marine artillery unit, the 
GMLRS [guided multiple launch rocket system], give them GPS 
[Global Positioning System].
    We shot, basically working with the Navy, with the Aegis 
cruiser, in the desert simulation out there, but a real missile 
at a low-flying target out there, shot an Aegis missile with an 
ADL [automatic data link] and it was behind a mountain range, 
and direct hit. We tracked a missile going up out of Vandenberg 
from 300 miles away. It is changing survivability for everybody 
in a very positive way. We got something new on our hands, and 
I think it is very positive.
    Admiral Miller. Just to add on to that comment of 
increasing the survivability of everybody else, a carrier 
strike group fights in an integrated fashion. So we are mixing 
in this fifth-gen capability with our F-18E/Fs, with our E-2, 
with our Aegis-class cruisers and destroyers and then the 
capacity that that brings. And so, yes, F-35 is more 
survivable. But to the point that General Davis made about 
increasing that survivability for everybody else, it absolutely 
does that because then it is coupled with the lethality that 
comes with the entire strike group.
    We talked earlier about maintenance and training, all of 
that, when we bring this onto our carriers, the entire package, 
making sure that the maintainers know how to operate it to keep 
that lethality in the air, to make sure--and we have already 
put F-35 out in our Top Gun classes out in Fallon, we talked 
about training out at Nellis, but Nellis and Fallon, that is as 
equally important so that our readiness is there when we ask 
for this capability that it is provided.
    Mr. Gaetz. Thank you.
    Mr. Turner. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask you a question in relation to a sense of 
urgency with the development of a fifth-gen fighter, with 
regard to the F-35. Could you elaborate on how close our 
adversaries are in developing fifth-generation fighters with 
capabilities that may match or exceed ours? And wanted to 
specifically ask General Harris.
    General Harris. Perfect, I appreciate the opportunity to 
respond to that. As we talked almost a year ago, there are 
several adversaries that are trying to copy our capabilities 
and sometimes it is the outer mold line, but what the fifth 
generation brings to us is also the internal piece. It is not 
just the stealth, it is the fusion across the weapon system, it 
is the engines that provide the maneuverability, and we 
continue to have an advantage, but they are quickly closing 
that gap.
    So we are trying to maximize our ability to procure fifth-
generation airplanes and go from a 100 percent fourth-
generation fleet to a significant mix of fifth generation so 
that we have the opportunity to operate in these hostile 
environments against these threats that are catching us faster 
than we thought they would.
    Mr. Veasey. As far as the internal capabilities of the 
plane, that involves a lot of technology. What are some issues 
that we may have that would make it hard for us to be able to 
keep up in regards to that area?
    General Harris. Well, we are looking at the weapons that 
the airplanes employ so we not only have to have advances and 
continued with rapid acquisition of the airframe, but as we 
build them, we also must continue to update them, so the 
follow-on modernization program is very important to all the 
warfighters associated with the F-35.
    The threats we look at, fifth generation is already making 
an impact in today's fight. Russia in Syria has deployed an S-
400 system that would or could exclude all fourth-generation 
aircraft from there. But because we are flying fifth 
generation, not yet the F-35 but very soon, we will have that 
opportunity. It is the fifth gen that brings our ability to 
operate within that environment, hold those threats at risk so 
that we are able to come to the table as a lead, and not a 
near-peer, and continue to have America's domination where we 
need to across the globe.
    Mr. Veasey. And kind of in relation to that, I wanted to 
ask Admiral Miller about U.S. engagement around the globe and 
where would the F-35 have the most immediate impact today.
    Admiral Miller. Yes, good question, sir, I appreciate it. 
Where would they have the most immediate impact today? I will 
tell you that our carriers are globally deployed. And so 
today's fight, for the most part, is counterterrorism. And it 
certainly would contribute there, but that is not the high-end 
fight where the value of the F-35 we would see that value.
    So what is the next trigger point? What is going to cause 
that carrier strike group to reposition and to find itself 
against that near-peer threat that General Davis talked about 
and General Harris talked about?
    So we build and we bring in this capability for that sort 
of a threat. So to answer your question on the immediate 
impact, it certainly would be able to contribute in the fight 
we have today in Iraq and Syria.
    Mr. Veasey. General Davis. Sir.
    General Davis. If I could, sir, I mean, if you watch the 
hands of time move and things change in the world, we talked 
about near-peer and peer competitors that are more closely 
coming to be a peer competitor. But for the high-end fight and 
for the low-end fight, a fifth-generation airplane is a very 
effective killing machine in all spectrum.
    We also have the ability when we get the 3F capability to 
put pylons on this airplane. The Marine Corps has every 
intention of doing that and I will be able to load up the F-35B 
with 3,000 pounds more ordnance than I can carry in a F-18 
right now.
    So we view this, it is a transformer. It can be a fifth-gen 
airplane for day 0 through 5 when, you know, I have got to bust 
in for days 5 through 60. I can put pylons on, operate from an 
amphibious ship, operate from 3,000 foot of 10 ashore <dagger> 
and basically go crush the bad guys, provide close air support 
to the guys on the ground and do what we have got to do.
---------------------------------------------------------------------------
    <dagger> ``3,000 foot of 10 ashore'' refers to a 3,000-foot 
airfield ashore.
---------------------------------------------------------------------------
    And then if I have to go move someplace else, go back to a 
high-end force or the situation changes, they roll in those 
missiles, right, and we still have guys on the ground that we 
have got to support. Bottom line is the F-35 can go back to 
that low-signature airplane very quickly.
    And with an airplane like in our Block 4, we get small-
diameter bomb. Now you are carrying eight SDB IIs and internal 
to the airplane, plus a cannon. It allows you to survive in 
that high-end threat environment and do close air support, that 
is the game changer. The airplane can go back and forth and do 
it all. I think that is the powerful thing we have got coming 
our way.
    Mr. Veasey. Thank you, Mr. Chairman. I yield back.
    Mr. Turner. I am going to read the order here so people can 
understand the expectation of when the time is for questioning. 
We have got Banks, Brown, Bishop, Wittman, Langevin.
    Going to Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. And Gentlemen, thank 
you for your service. Thanks for being here today.
    You have answered a number of questions already. This has 
been enlightening for a new Member of Congress, like me. But 
specifically, I have a question, General Harris, for you about 
the future of the National Guard, the future of the program for 
the Reserves, for communities like mine, the 122nd Fighter 
Wing, who might hope one day to pursue the F-35 as a program at 
our base, at our installation.
    But more broadly, what does the program look like in the 
National Guard and the Reserves moving forward?
    General Harris. Well, sir, that is a great question. We 
have, over the last 5 or 6 years, moved the Air Force through 
some of the concerns we had with our Guard and Reserve because 
over the last two decades our Guard and Reserve have been 
participating at extreme levels, much more than we would have 
expected a while ago for the rapidity of how often they deploy 
and the capabilities they bring to the fight.
    And when you listen to a brief, when you look at the 
performance, you can't tell the difference between an Active, a 
Guard, or Reserve, it is all the same. Because of that, we are 
looking at the beddown of F-35s in the Guard and Reserve as we 
go along. So it is not an airplane that is going to flow to the 
Active first and then move to the Guard or the Reserve. We are 
already making those beddown decisions now. So as you can see, 
our next one has already been selected for the Guard and we are 
now looking at five and six where those are best going to be 
placed.
    They are a part of it, they are involved with us on a daily 
basis and specifically units, not every unit is going to get an 
F-35, but we have some of these that will continue to advance 
either in the fourth-gen capability as we modernize that and 
they can participate in small areas and also homeland defense. 
But then there will be a follow-on to the F-35, whether it is 
in an air superiority role complementary to the F-22, as the F-
35 is, or that next generation after it, it may be a sixth 
generation. So I expect the Guard and Reserve to continue to be 
equal partners with the Active Duty.
    Mr. Banks. Thank you for your commitment to that. Thank 
you, Mr. Chairman. I yield back.
    Mr. Turner. Mr. Brown passes. Mr. Bishop.
    Mr. Bishop. Thank you.
    First of all, I appreciate, Mr. Chairman, you hosting this 
hearing, as well as, Gentlemen, for showing up to it, that is 
very kind of you. I am glad I was able to free my schedule so I 
could listen to all of this; this is an important issue.
    However, Mr. Chairman, you don't really have to start at 
8:00 in the morning for me to free up my schedule. I can't for 
the future. He is not listening. Fine, all right.
    [Laughter.]
    Mr. Turner. I was, I just don't have a response.
    Mr. Bishop. Yes, okay, fine, we will talk about that later, 
too.
    General Bogdan, if I can, I am in a policy level here, I am 
an old history teacher so the specifics sometimes are mind-
boggling. What I am trying to come up with is simply what our 
policy decisions ought to be. So if you could just tell me, you 
know, the recent Red Flag exercises you had, did the F-35 meet 
your expectations or did they exceed those expectations?
    General Bogdan. I will tell you, Congressman, from a 
program director's perspective, those results far exceeded my 
expectations. The idea that 13 airplanes could have a mission-
capable rate of above 90 percent and they could fly 207 
missions out of 226 and the only missions that they lost were 
due to weather or other reasons, with none lost to maintenance. 
At this point in the program where we only have 200 airplanes 
out there and we only have 73,000 hours of fleet time, which is 
about only 25 percent to 30 percent on the way to full airplane 
maturity, tells me that this airplane is just getting better 
and better and better, day in and day out.
    Mr. Bishop. Which becomes extremely significant, as our 
colleague from Florida mentioned. When we send the warriors out 
into battle, I don't want it to be a fair fight. That should 
not be our policy decision. And the value of a life is a 
significant component that can't be placed in simple dollars-
and-cents terms, and that is why it is simply important that 
this generation of fighter becomes so much more significant 
than the fourth generation, because we are talking about real 
people here.
    When you also mention the death spiral, as far as 
budgeting, that happens if we decide to cut spending. If we 
just do a continuing resolution, though, that simply moves the 
spending to the right and postpones it; is that having the same 
impact as if we actually authorize some kind of cut to it?
    General Bogdan. A continuing resolution in FY 2017 for the 
program is not as harmful as if it were going to last a very 
long time. And what I mean by that is right now I am in the 
throes of negotiating our lot 11 airplanes. It is 120 
airplanes, that is FY 2017. In the continuing resolution, I am 
not allowed and not authorized to spend any more money than I 
did in FY 2016 or buy any more of the airplanes than I bought 
in 2016. So right now my hands are tied when it comes to 
negotiating lot 10.
    Mr. Bishop. So what we need to do is making sure that that 
could have the same impact as simply doing an outright cut to 
your program.
    General Bogdan. Yes, sir, it does.
    Mr. Bishop. Let me hit a couple other things. Look, you 
have talked also about the cost per unit. And this is a great 
aircraft, although I have to admit the B still looks like a 
1957 Chevy. But other than that, it is still a great program 
here. If you can recall when I was young and we were doing the 
F-16s, how many were we producing a year?
    Do you recall at the high point of that production what the 
number was?
    General Bogdan. I do not recall that, sir. I know it was 
more than 100.
    Mr. Bishop. I bet you weren't doing 43 a year back.
    General Bogdan. No, we were doing a lot more than that.
    Mr. Bishop. And the cost per unit still goes up, the 
smaller that is, that number, that lot is that takes place.
    General Bogdan. Correct.
    Mr. Bishop. Can I ask another question? When do we need to 
start working on the sixth generation?
    General Harris. Sir, we started that long ago.
    Mr. Bishop. Which is another reason why we have to have the 
fifth in production and use it quickly.
    General Harris. Sir, I would say that part of our 
termination of the F-35 program will deal partially with the 
numbers and the rates we are able to buy them, how fast we can 
get to the end, but also that we have another fighter available 
for procurement. The Air Force needs to be procuring more than 
100 fighters a year with the 1,900-plus that we have now to 
replace them. Because right now the average Air Force fighter 
is 27 years old and that is a classic if we were automobiles in 
several States.
    Mr. Bishop. I will just do this in the 10 seconds I have 
got left. If there is an overrun on the next lot, who bears 
that burden? And is that different than in the first lot that 
came if there is an overrun?
    General Bogdan. Absolutely. If there is an overrun in the 
target cost of the lot of airplanes, that is born 100 percent 
by industry because the contracts we now negotiate with them on 
the top end of this are their responsibility and their risk.
    Mr. Bishop. And is that different from the first lot?
    General Bogdan. Yes, that is different from the first four 
lots of airplanes. We started that in lot five when I first 
came on the program to balance that risk, sir.
    Mr. Bishop. Thank you. I yield back.
    Mr. Turner. Representative Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for joining us today. And, 
again, thank you for your service to our Nation.
    Lieutenant General Davis, I want to begin with you. You 
have spoken very eloquently about the F-35B and its 
capabilities. You did recently talk about the ramp rate for the 
F-35B, saying that it is anemic. Give me your perspective on 
where you think the ramp rate needs to be on F-35B procurement. 
And before you begin that, I just want to echo that you have an 
exceptional marine there in Major Glines. Go ahead.
    General Davis. I know that, sir. Thanks very much for the 
question. I will tell you, the ramp rate right now has been 
anemic and it is manifesting itself that we are keeping our 
legacy platforms going longer. And frankly, we have got some 
inventory challenges out there on the flight line that are very 
difficult to address.
    We are, with your help, we are basically pushing the 
numbers back up. But we won't recover our full readiness until 
some time in the future for what we need to do our job as a 
Marine Corps the way we need to do it. So right now the ramp 
rate is anemic.
    We think, in talking with Lockheed Martin, that if we could 
get a few more a year we would actually be able to sundown our 
entire fourth-generation fleet of F-18s and Harriers by 2026. 
That cuts about $2 billion worth of operating costs versus 
sustaining old airplanes that are not giving us the readiness 
we really need. They are tried-and-true, but it is like trying 
to get me--I did a marathon last year, sir. My first marathon, 
I was able to go out and walk around after. This last marathon, 
I had to lay still for a couple of days. And we are seeing that 
with some of our older airplanes. But we think, like, this 
year, I think, we are 16, 20, 20, 20, 21 for the F-35s. We 
think we could go to 19, 23, 23, 23, 31 and get a max 
production rate of 37 aircrafts in 23.
    That pulls all that left and basically gets us out of the 
old metal earlier and gives our marines that capability they 
need to go fight our Nation's battle and collapses our 
readiness challenge in a significant way.
    Mr. Wittman. Very good, our job is to authorize and fund 
that.
    Rear Admiral Miller, I want to elaborate even more on where 
the Navy is. Admiral Moran, the Vice CNO [Chief of Naval 
Operations], came in the other day, talked about availability 
of F-18 aircraft, obviously very, very problematic. I asked 
Lieutenant General Davis about the ramp rate for F-35 for the 
Marine Corps. If the F-35 ramp rate for the Marine Corps is 
anemic, then I would say that the ramp rate for the Navy, the 
ramp rate has no pulse.
    The question is, if we have these F-35 aircraft that have 
these exceptional capabilities that we need up there in the air 
that perform exceptionally, you had some recent tests of F-35 
on the carrier, success there in those tests. This year we are 
on track to purchase two F-35s in the Navy.
    Give me your perspective on how we have this seeming 
dichotomy, an exceptional aircraft the F-35, and what it can 
do. We have unavailability of current Navy inventory of F-18 
aircraft. How do we bridge that gap? How do we make the right 
decisions to get to where we need to be?
    Admiral Miller. Yes, sir. I think you accurately depicted 
our current situation. First off, on the tests out at sea, we 
had some discussion earlier about Red Flag and that, for us, it 
was taking F-35C out to sea on USS George Washington. Very 
successful, we learned an awful lot.
    But the one thing that really jumps out at you from a 
carrier aviator perspective: 152 arrested landings, 100 percent 
boarding rate. And this was bringing fleet pilots, our FRS 
[fleet replacement squadron] instructors out there. Pretty 
unheard of, zero bolters and zero ``1'' wires. So it does give 
us, you know, quite excitement for that. So we are working a 
balance.
    We need to address the bulk of our fleet right now. We have 
four F-18 squadrons in every single one of our nine carrier air 
wings. And the availability is as the vice chief described it, 
so we have to get after that. A lot of different levers, of 
which one is depot throughput, the other is really the enabler 
accounts, your spares accounts, your PRE [program related 
equipment] and PRL [program related logistics] accounts that 
work tech pubs and updates to manuals and that sort of stuff, 
has been underfunded for many years and now we are starting to 
see the results of that.
    So what do we need to do? We have to properly fund and 
start recovering that readiness of our existing F-18 fleet 
today.
    Some of that, one of those--and then procurement is really 
another lever to pull. So I would contend that we need to, and 
our budget has asked for, at least through the unfunded 
priority list, additional F-18s to start applying towards that 
readiness.
    As we ramp up, we are in a little different position than 
the Air Force and the Marine Corps with respect to F-35. Our 
first squadron doesn't start training until next year, and then 
we don't deploy until 2021. So we need to do that in a fashion 
such that we have the maintenance throughput, such that all of 
the systems on the ship, USS Carl Vinson, that is going to 
support that first deployment, that air-ship integration is 
fully in place.
    So our ramp rate right now, even if you seriously changed 
it, would I have that throughput and what would that difference 
be. So I think for right now, our near-term focus is on the F-
18 readiness issue that we have. And probably in the out-years, 
that is where all of a sudden we may have some opportunity to 
adjust that rheostat and change that ramp rate.
    Mr. Wittman. All right. Very good. Thank you, Mr. Chairman. 
I yield back.
    Mr. Turner. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for your testimony today and 
we thank you all for your great service to our Nation.
    Let me say, it is a pleasure to be a part of the 
subcommittee for the first time during my tenure on the Armed 
Services Committee. And I certainly look forward to working 
with you, Mr. Chairman, and our ranking member. I congratulate 
our ranking member for assuming her position in this role and, 
of course, the other members of this subcommittee.
    So, General Harris and General Bogdan, I come from the 
Emerging Threats and Capabilities Subcommittee where I serve as 
the ranking member, where cybersecurity is one of our higher 
priorities. So, many have been critical of cybersecurity 
inadequacies within the F-35 program. And I understand that the 
technology advancements in fifth-generation fighters will be 
operating on a netted enterprise that will rely upon advanced 
systems for data links, target mapping systems, and C2 [command 
and control] that could be vulnerable to cyberattacks.
    So obviously, it is imperative that we understand the 
cybersecurity requirements for fifth-generation and beyond 
fighter programs in order to avoid further cost impacts, 
schedule delays, and possible cyber intrusions or 
vulnerabilities.
    To this effect, last year section 1649 of the NDAA required 
an evaluation of cyber vulnerabilities in the F-35 aircraft and 
support systems. Can you explain how the current version of the 
F-35 software addresses security vulnerabilities found in 
previous versions? Do known vulnerabilities from previous 
software versions remain unpatched? And are there mitigation 
techniques for vulnerabilities that remain, whether inherited 
from previous iterations or new to the current version?
    General.
    General Bogdan. As I said before, Congressman, if you look 
at the airplane itself, I think you will find that the 
architecture of the airplane, when it was designed early on, 
was, foremost in our mind was that we were going to export this 
airplane and other people were going to use it. Therefore, when 
we built the airframe itself, we ensured that there were things 
on the airplane that were protected.
    I have no doubt in my mind, given the testing that we have 
done so far, that those safeguards on the airplane are working 
well. And the OT community today is doing the penetration 
testing and the vulnerability testing on the airplane itself. 
And those reports, when completed, we will make available to 
the Congress. They would not be publicly able to be seen, we 
would have to do that in another place.
    But as I said, the bigger problem that we see is on our 
off-board systems that are connected to various networks. And 
when the system was originally designed, the maintenance system 
and the mission planning system on this airplane, we didn't 
know what we didn't know about the threats. And the threat 
cyber-wise continues to evolve day in and day out. So it is 
sometimes a catch-up game for us to be able to recognize what 
the current threats can do and figure out a way to get that 
into our systems.
    Mr. Langevin. Do we know, do you know if known 
vulnerabilities from previous software versions remain 
unpatched?
    General Bogdan. I will tell you that there are 
vulnerabilities in the system today that we know about that we 
are trying to fix. Can we fix them all at once with the flip of 
a switch? The answer is no. But we put other mitigation 
strategies in place to ensure that that vulnerability doesn't 
become a risk or a problem, additional inspections, where we 
use the system, how we use the system. But it is a true 
statement that today there are vulnerabilities that exist that 
we are trying to fix.
    Mr. Langevin. Okay. General Harris, do you have anything to 
add?
    General Harris. Sir, I would also add that with cyber, all 
vulnerabilities generally go down to the weakest link, which 
means a lot of times it is our young men and women that are 
working on the airplane or plugging into it with something. So 
it comes back partially to training and making sure they 
understand the process and procedures they can follow and that 
social media and other things have no place in this type of an 
environment.
    Mr. Langevin. On that particular point, I believe we must 
consistently ask how warfighters are training and building 
confidence with advanced technologies that they are going to be 
using. And while I am new to this subcommittee, I believe that 
general principle holds true across disciplines. So how are we 
doing as far as pilots getting training hours to become 
confident in their abilities inside the aircraft before they 
take to the skies in combat scenarios?
    General Harris. Sir, we are doing well on that. We are 
working through the simulated environment to make sure that 
they get that training before the first sortie and that is 
actually part of the congressional help that we had at Luke Air 
Force Base, standing up the simulators and the facilities.
    The team is doing extremely well, the maintainers and the 
tech training, so that by the time they go out and complete 
their training, whether it is as an operator or maintainer, the 
results speak for themselves at Red Flag; 92 percent MC 
[mission capable] rates are better than we are seeing across 
any other fighter fleet.
    Mr. Langevin. Thank you, General.
    Mr. Chairman, I would hope that the report that General 
Bogdan referred to, once it is available, will be forwarded to 
the committee so we understand the cyber vulnerabilities that 
haven't been addressed or still remain. And I have some other 
questions I would like to submit for the record if possible. 
With that I yield back.
    Mr. Turner. Great. Thank you. Well, Representative 
Langevin, you have been a great advocate on the issue of cyber 
so we appreciate your comments.
    With unanimous consent, I recognize Doug Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, for letting me join 
this important hearing.
    I am a strong supporter of the F-35 program. Fifth-
generation capabilities are essential to our Nation's defense. 
I do remain concerned about the pilot escape system, especially 
the ejection seat. So I have a few questions on that. And I am 
not sure who to direct this to specifically. Okay.
    Thank you, General.
    As you know, the Air Force discovered that pilots who weigh 
less than 136 pounds were at high risk of severe injury or 
death during ejection. The program review last year by the 
director of operational test and evaluation from OSD stated, 
quote, ``The extent to which the risk has been reduced for 
lighter-weight pilots by the modifications to the escape system 
and helmet is still to be determined by a safety analysis of 
the test data,'' unquote. So that is what I am going to pursue.
    So first of all, how many tests to date have you done to 
qualify the Martin-Baker ejection seat for the F-35?
    General Bogdan. Multiple different kinds of tests, but if 
you are talking about the actual no-kidding, shooting the 
ejection seat with a dummy in it to check, I believe we have 
done on the order of about 19 to 23 tests.
    And we are completed now with all of those tests. The last 
few tests that we did over the last 5 or 6 months included the 
three fixes that were necessary to reduce the risk of those 
lightweight pilots in an ejection scenario. The first of those 
fixes was a lighter helmet, and we have built those lighter 
helmets and have them now.
    The second was a sequencer switch on the seat that could be 
selected by the pilot if he is a lightweight pilot or 
heavyweight pilot. And that reduces the opening shock on 
ejection.
    And the third is a head support panel that is placed on the 
risers so that when the parachute does come out during 
ejection, the pilot's head cannot be snapped back. All three of 
those fixes were designed, all three of those fixes are now 
tested, all three of those fixes are now getting ready to be 
cut into production.
    The one last test I have to do for the entire ejection seat 
system is put all of those together and fire electrons at it to 
make sure our triple, we call it triple E testing, triple E 
testing is done. That testing is scheduled in March, sir.
    As soon as those tests are complete, we will have all the 
reports necessary to hand to the services so that they can make 
the determination that the risk has been reduced enough to 
lower the weight of the pilots.
    We are not waiting for that. We are now putting the kits 
together to retrofit all the airplanes out there with the 
lighter helmets, with the helmet support, and with the switch 
so that if the services give us the okay in April we will start 
modifying airplanes.
    The data that I have seen so far, and it is not the final 
data, indicates that we have reduced the risk not only for 
lighter pilots, but all pilots in the F-35 from a problem with 
neck loads with these three fixes, and that is an improvement 
across all of the pilot population. And we will be able to 
remove that restriction down to 103 pounds. But it just took 
some time to get it done and now we are getting it done.
    Mr. Lamborn. And I know that there is another model out 
there or available. And I want to really be making sure that we 
compare the risk of what is currently in place versus the 
alternative model that is available to make sure we are not 
having unacceptable risk to our highly trained and valuable 
pilots.
    General Bogdan. And we agree with that. When we did 
originally pick the Martin-Baker seat over an ACES [Advanced 
Concept Ejection Seat] seat, that risk was done. In 2010, the 
U.S. Air Force did a second look to make sure that the Martin-
Baker seat was the right seat and they did it.
    But notwithstanding all of that, with the three fixes we 
have had to make, the Air Force has sent me direction that they 
want me to relook once again to make sure that the Martin-Baker 
seat is fully capable of protecting our pilots as best we can 
and compare that to what a future ACES seat would look like. We 
are in the process of doing that right now.
    Mr. Lamborn. Thank you. I am glad, glad to hear that.
    General Bogdan. We are doing that right now.
    Mr. Lamborn. And a couple background questions real quick 
before my time is up. What is the total cost to the program 
that has been incurred because of all this 19 to 23 tests and 
the future test you are talking about?
    General Bogdan. Zero. When the problems with this occurred, 
we went back to industry and said we believe that we have given 
you enough time and enough money to design the seat 
appropriately. Therefore, any changes that have to be made in 
the engineering, the retrofitting, and the production cut-in 
are to be borne by industry and not the government, and they 
agreed.
    So right now the U.S. Government is not paying for any of 
those fixes, sir.
    Mr. Lamborn. Okay, thank you. Mr. Chairman, I yield back.
    Mr. Turner. Gentlemen, we have come to the end of the 
hearing. I wanted to give you an opportunity if any of you have 
additional comments for the questions that have been asked or 
for information you think would be important for this 
committee. I want to give you the opportunity to take this 
opportunity. Any additional comments?
    General Bogdan. Sir, I just want to thank the committee for 
your continued oversight. I have been on the program for almost 
5 years. I have a tremendous working relationship with your 
staffs and I appreciate that. We try and be as open and as 
transparent as we can. We understand you have a tough job to 
do.
    I will tell you this is not the same program it was many 
years ago. And we appreciate the support that this committee 
has given to the F-35 program. Thank you, sir.
    Mr. Turner. Great, thank you. And with that we will be 
adjourned.
    [Whereupon, at 10:53 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           February 16, 2017

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 16, 2017

=======================================================================

      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  





      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 16, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. We have read a lot that SDD may not complete by the end 
of October of this year. Can you give this committee the ground truth 
as where we are with completing SDD? And why is your estimate to 
complete so much lower than what DOT&E has said?
    General Bogdan. The completion of System Development and 
Demonstration (SDD) will be event driven. The JPO/Industry team will 
continue SDD until the full Block 3F capability is delivered to the 
warfighter. There is no intention of truncating the program on any 
specific calendar date or at some pre-determined budget-level. There 
are two important milestones associated with the closeout of this phase 
of the program: Completion of SDD flight test and the delivery of the 
full Block 3F capability.
    Completing SDD Flight Test: The original 2011 re-baselined Program 
of Record showed flight testing ending on 31 October 2017. The JPO has 
always believed there is 3 to 4 months of risk to this completion date, 
putting the end of SDD flight test in February 2018. However, the 
Department has directed the JPO to maintain the resources necessary to 
continue flight testing to May 2018 if necessary. The JPO's risk-
adjusted date of 31 January 2018 is the result of a number of flight 
test delays experienced in the past 2 years including the 2014 F-35 
engine fire and the Block 3i software stability issues which delayed 
Block 3F flight testing. We are confident flight testing will be 
completed in January 2018.
    Delivering Full Block 3F Capability: The delivery of the full 
capability for all 3 variants falls within the original 2011 
Acquisition Program Baseline dates with the exception of the B-model 
envelope expansion to 1.6 Mach.

                                        Full Block 3F Capability Delivery
----------------------------------------------------------------------------------------------------------------
            2011 Post Nunn-McCurdy APB Dates                                 Current Estimate
----------------------------------------------------------------------------------------------------------------
                                                         F-35A: October 2017 (w/o AIM-9X)
Objective: August 2017                                         November 2017 (w/ AIM-9X)
                                                         F-35B: November 2017 (1.3 Mach)
                                                               May 2018 (1.6 Mach)
Threshold: February 2018                                 F-35C: January 2018 (1.3 Mach)
                                                               February 2018 (1.6 Mach)
----------------------------------------------------------------------------------------------------------------


    SDD Cost-to-Complete: The remaining SDD work is estimated to cost 
$2.3 billion which includes an additional $532 million above the 
current funded program. The additional funding is needed due to several 
factors. First, there were additional requirements added to the 
programduring SDD (e.g., deployable ALIS, mandated program security 
changes, mandated aircraft cyber security changes) which were never 
paid for at the time they were executed. These new requirements totaled 
$165 million. Secondly, DOD removed $100 million from SDD funding in 
prior years to pay other higher priority bills and this money was never 
restored to the Program's baseline SDD budget. Finally, a shortfall of 
approximately $267 million was caused by unforeseen events, such as the 
2014 engine fire and the delay to Block 3F testing while the Program 
improved Block 3i software stability and fusion issues; both of these 
issues resulted in added schedule and cost to the completion of SDD. 
The $265 million of ``payback'' along with the $267 million due to 
unforeseen events resulted in a need for an additional $532 million. 
This money as mentioned above will be sourced from inside the F-35 
Program using management reserve, unearned fee, and the savings 
resulting from negotiating lower costs on various contracts. In 
addition, use of this internal funding will result in no impact to any 
other DOD programs or the Services/DOD's budget requirements. 
Additionally, as mentioned previously the Department has directed the 
JPO to maintain the resources necessary to continue SDD flight testing 
to May 2018. Should flight testing beyond February 2018 to May 2018 be 
necessary the JPO will hold $100 million of Follow-on-Modernization 
(FOM) funding in fiscal year (FY) 2018 to pay for this added flight 
testing.
    In response to DOT&E's assessment and recommendations on SDD 
completion and cost, the JPO's estimate incorporates schedule and cost 
savings/avoidance brought about by a disciplined process to identify 
No-Longer-Required (NLR) test points based on previous results and 
implementation of an improved, more rapid software deficiency 
resolution process. The F-35 program will continue to implement these 
disciplined processes in close coordination with the Operational Test, 
Developmental Test and operational user community and is committed to 
correcting all deficiencies that the Services and Partners deem 
necessary to fix. Based on progress to date, we are confident both SDD 
Flight Test Completion and Delivering Full Block 3F Capability 
milestones will meet the above schedule.
    As a final note on the SDD budget, it is important to look back to 
the 2011 Rebaselined Program and compare today's cost estimate to 
complete SDD with the cost controls put in place after the Nunn-McCurdy 
Breach. The following table makes this comparison.

                                                SDD Cost Baseline
----------------------------------------------------------------------------------------------------------------
              2011 Post Nunn-McCurdy 2011                                    Current Estimate
----------------------------------------------------------------------------------------------------------------
Objective: $13.9 B (50% probability)                     $13.9 B
Threshold: $15.1 B                                       delta = $267 M (discoveries)
                                                         Total = $14.2 B
----------------------------------------------------------------------------------------------------------------


    As the chart indicates, the Program has remained within $267 
million (2.1%) of the 2011 Objective Budget Estimate and well below the 
Threshold Budget Estimate, indicating that the fiscal discipline and 
cost control measures executed by the Department have been effective.
    Mr. Turner. What is the JPO and industry doing to adjust to a 
potential increase in production demand, a ramp up if you will?
    General Bogdan. The JPO and Industry have been anticipating and 
preparing for the ramp to full rate production since re-baselining the 
program in 2011. Industry capacity and infrastructure to support peak 
production are assessed annually through joint Production Readiness 
Reviews (PRRs), as well as industry-led capacity deep dives. The next 
increment of PRRs is set to be conducted from 2nd Quarter 2017 through 
1st Quarter 2018. Lockheed Martin's assembly operations, as well as 27 
key suppliers, will be assessed.
    F-35 final assembly facilities and their suppliers have for the 
most part established an infrastructure and manufacturing footprint 
that will support full rate production. The focus now and in the 
immediate future is adding the tools and additional skilled workforce 
necessary to fully leverage the infrastructure that is in place. Key 
enablers that we are executing to support the ramp to full rate 
production include:
    <bullet>  Stabilizing the F-35's design: This supports more 
efficient production, with less disruptions from product definition and 
manufacturing changes;
    <bullet>  Issuing timely contract awards: This enables assembly and 
fabrication operations to begin with adequate lead times and focus on 
timely deliveries;
    <bullet>  Improving Tooling and Manufacturing Technologies: This 
enables improved quality, reduced span times, increased production 
efficiency, and better schedule adherence; and
    <bullet>  Maximizing Dual or Alternate Sourcing: This reduces 
single point failures in the supply chain, as well as provides 
competition that can be leveraged for improved affordability.
    Rate readiness will continue to be evaluated to validate capacity 
and identify and mitigate risks in transitioning to full rate 
production. The JPO is confident that the Government-Industry team can 
execute the current production ramp up plan.
    Mr. Turner. The F-35's Autonomic Logistics Information System or 
ALIS has been challenged and in some cases lacking. General Bogdan, 
when do you expect to deliver the full capability of ALIS 2.0.2 and 
what steps has the program taken to improve the delivery performance?
    General Bogdan. The F-35 JPO agrees that the Autonomic Logistics 
Information System or ALIS has been a challenge. The System is 
improving and providing good capability to the field; however, there is 
still more work to be done. The System is a ``first of its kind'' for 
maintenance and logistics management within DOD.
    Improving Performance: Recognizing we needed to do a better job 
with ALIS development, the JPO/Industry team took these measures:
    <bullet>  First, we created an ALIS Operational Representative 
Environment (ORE) at Edwards Air Force Base in California. The ALIS ORE 
functions as the test platform for ALIS that allows us to test ALIS in 
a more operationally relevant environment.
    <bullet>  Second, industry has added additional software expertise 
to its team.
    <bullet>  Finally, from an operational perspective, as ALIS 
supported Development Test and Operational Test events ashore and 
afloat, we took the lessons learned from the deployability 
demonstrations and incorporated them into an ALIS Deployment Guide
    Expected Delivery: The next version of ALIS, version 2.0.2, is 
complete. This version of ALIS combines the management of F135 engine 
maintenance within ALIS and tracks all the life-limited parts on each 
and every F-35 aircraft. Our original estimate was that ALIS 2.0.2 
would be fielded in December 2016. The software was installed at Nellis 
Air Force Base in Nevada on 23-26 March and is performing well. The 
deployment plan for all sites has been established and we are executing 
to that plan. All operational sites will transition to ALIS 2.0.2 by 
the end of October 2017.
    Mr. Turner. Last year when you appeared before this committee, the 
F-35 development program was experiencing challenges with the 
software's stability. Can you give us an update on this and let us know 
if this issue persists?
    General Bogdan. Let me begin by first characterizing the software 
stability challenges and what we were seeing a year ago. At the time, 
we had both Block 3i and Block 3F mission software in flight test and 
we were experiencing instability in the sensors--particularly the 
radar--leading it to shut off and ``reboot'' in flight. This was 
occurring about once every 4 hours of flying, far below where we wanted 
it to be--once every 8 to 10 hours.
    We did two things to work through this:
    <bullet>  First, I suspended all Block 3F mission systems flight 
testing so we could apply all our energy and resources on Block 3i, the 
software version we needed to support the Air Force's Initial Operating 
Capability, and the software that formed the foundation of Block 3F.
    <bullet>  Second, we assembled a team of Government and Industry 
experts--A Software Red Team--to dig into this and identify the root 
cause and make recommendations to improve our software development and 
test process.
    Today the Block 2B and 3i mission software is exceeding initial 
estimates in terms of stability. The Block 2B software experiences a 
software stability event once every 29 flight hours and Block 3i 
experiences a software stability event once every 25 flight hours. 
These are the software versions that our U.S. Marines and Airmen are 
flying with in their operational combat-coded F-35s. These stability 
measures are considered excellent when compared to our original 
stability starting points and when compared to legacy aircraft that 
have far less complex software systems.
    The F-35's Block 3F software is more complex than Block 3i so we 
anticipated having to work through a learning curve--test, fix, and 
verify. We initially were seeing a software stability event once every 
5 flight hours and now we're seeing that improve. The current Block 3F 
software that is in flight test is well above the 10 hour goal showing 
us a stability event once every 22 hours. While this is encouraging, 
we're not ready to claim victory yet. We need to do a lot more testing 
and get a lot more flight hours with this software before we say with 
certainty that it's as stable as Blocks 2B and 3i.
    Mr. Turner. Another area you discussed with us last year is the 
technical challenges with the F-35's ejection seat system. Please share 
with the committee what progress the program has made in resolving this 
and what if anything remains to be done?
    General Bogdan. The F-35 ejection seat/escape system is not only 
the safest we have today but provides protection for the widest range 
of pilots--from 103 pounds to 245 pounds--of any ejection system ever 
built. During the summer of 2015, the F-35 Government and Industry team 
became aware of an issue with the F-35 ejection seat/escape system that 
led to, in August 2015, the U.S. Services and International Partners 
restricting F-35 pilots weighing less than 136 pounds from operating 
the F-35 after safe escape tests indicated the potential for increased 
risk of injury to this pilot population.
    Expert teams from the U.S. Services, Joint Program Office, and 
industry developed and tested three technical solutions that when in 
place will reduce the risk of neck injury to all pilots and will 
eliminate the restriction to any pilot population. These solutions 
include:
    <bullet>  A head support panel between the rear parachute risers 
that prevents neck over-extension; ? A pilot-selectable weight switch 
to reduce opening parachute loads; and
    <bullet>  A lighter F-35 helmet.
    Test data indicates that these fixes have made all pilots safer if 
they have to eject from an F-35 and have reduced neck loads 
sufficiently to allow the smallest lightest pilots (103 lbs.) to fly 
the F-35. All testing has been completed and the F-35 Joint Program 
Office (JPO) System Safety team has provided its recommendation to the 
U.S. Services to remove pilot restrictions. The JPO expects to begin 
retrofit of fielded aircraft in April, pending final Service approval. 
The production cut in of these fixes is our Lot 10 aircraft.
    Mr. Turner. What is the optimal ramp rate for F-35 procurement for 
the Marine Corps?
    General Davis. An optimal F-35B ramp for Marine Aviation, across 
the FYDP would be 20, 23, 23, 23, 30 and up to 37 in 2023, increasing 
to full rate production outside the FYDP until we complete our program 
of record. This gets us out of legacy aircraft and into new aircraft 
faster, saves money in procurement spending, avoids the increasing O&S 
costs of legacy platforms, and eliminates redundancies by modernizing 
from the current three legacy aircraft into the Joint Strike Fighter.
    Mr. Turner. How could F-35 help with strike/fighter readiness?
    General Davis. The Marine Corps has a very different readiness 
model when compared to the other services. We are small in size, but 
are required to maintain a constant state of high readiness. As the 
``Nation's Force in Readiness,'' the answer to our tactical aircraft 
readiness challenges lies in the recapitalization of our legacy fleet, 
a process currently flowed out over the next 14 years, completing in 
2030. The average age of any Harrier or Hornet in the Marine Corps is 
22 years. The oldest Harrier in the inventory is 28 years old. The 
oldest C and D Hornets in the inventory are pushing 30 years, built 
just after Apple rolled out the first personal computer. These aircraft 
will be well into their 40s at the end of the transition. While these 
aircraft have met the call of duty and performed brilliantly in battle, 
maintaining aging legacy platforms is a challenge that costs more over 
time, especially with today's high operational tempo. Transitioning the 
fleet from legacy into F-35 as fast as prudently possible is the only 
way to ensure tactical readiness for future demands.
    Mr. Turner. How confident are you in F-35's capability to deploy?
    General Davis. I am extremely confident in the capability of this 
aircraft to deploy and perform while deployed, as demonstrated by VMFA-
121's deployment to PACOM in January 2017. The F-35B has proven itself 
ready to deploy through operational and developmental testing, 
participating in numerous large scale exercises, and conducting fleet 
operations. These efforts rigorously tested the ability of F-35 to move 
from a main base to an expeditionary site and then sustain simulated 
full spectrum combat operations. Whether aboard ship (OT-1, DT-3), or 
while conducting operations from austere environments such as the 
Strategic Expeditionary Landing Field in 29 Palms, Ca (Exercise Agile 
Lightning), F-35 met the operational mark. The aircraft performed 
exceptionally well during high end, large scale exercises; to include 
achieving never before seen results in the demanding scenarios of our 
weapons school (Weapons and Tactics Instructor Course) and the United 
State Air Force sponsored Red Flag Exercise. The aircraft is ready to 
rapidly deploy anywhere in the world; in the last 7 months it has flown 
across both the Pacific and Atlantic Oceans. Finally, we know it is 
ready to deploy because we've already done it. VMFA-121 just completed 
their squadron's permanent change of station (PCS) from MCAS Yuma, Az 
to Iwakuni, Japan and they are now firmly established overseas 
conducting operations.
    Mr. Turner. What kind of feedback have you received from your F-35 
pilots in regards to performance?
    General Davis. They love the aircraft. Our conversion pilots tell 
us they are more lethal and more survivable and wouldn't go back. Our 
newest generation of pilots is performing at levels previously occupied 
solely by legacy instructor pilots. The future is very bright. We are 
getting feedback from our pilots of unprecedented performance at our 
premier weapons school and during joint exercises. The confidence our 
pilots have in the aircraft is unprecedented and is well founded in the 
demonstrated leap forward in effectiveness and efficiency of the F-35B.
    Mr. Turner. Do you believe the amphibious fleet is ready to host 
the F-35?
    General Davis. Absolutely. The LHA/LHD modernization schedule is 
on-track with the Wasp and Essex on timeline to make their upcoming MEU 
sail dates with F-35B aboard ship. The level of effort the USN has put 
forth to ensuring their ships and personnel are prepared, trained, and 
equipped to support F-35 operations has been great. F-35 conducted very 
successful test events at sea, to include operating 12 F-35Bs aboard 
the USS America during DT-3. Feedback from both OT-1 aboard the USS 
Wasp and DT-3 aboard the USS America has been very positive with F-35 
meeting or exceeding every major milestone. The Navy and Marine Corps 
team has come together in two large format wargames to prepare for the 
upcoming deployment: the Ship Sustainment Working Group and the First 
Deployment Initiative. These two efforts addressed everything from what 
equipment we are going to bring aboard ship, to how we are going to 
conduct operations, to how we are going to sustain the aircraft while 
deployed. The result of all of this effort and preparation is going to 
be a more lethal, more ready, more prepared Navy/Marine Corps team when 
the ships sail next year with F-35 aboard.
    Mr. Turner. The Navy has always said that their requirement is to 
have a combination or mix of 4th gen and 5th gen aircraft. Based on the 
current assessment that the Navy is doing in regards to the SECDEF 
directive, will the Navy's requirement for F-35C variants remain at 260 
aircraft?
    Admiral Miller. The Department of the Navy requires 340 F-35C 
aircraft. Based on detailed campaign analysis, the Navy plans to field 
a 50/50 mix of 4th and 5th generation Strike Fighters represented by 
the F/A-18E/F and the F-35C. This provides our Carrier Strike Groups 
the capability and capacity to meet any threat. Each of our nine 
Carrier Air Wings (CVWs) has four Strike Fighter Squadrons. Two of each 
of these four squadrons will be F-35C squadrons. There will be a total 
requirement of 18 F-35C squadrons. The remaining aircraft inventory 
represents training assets, aircraft out of reporting due to deep 
maintenance, modifications, and attrition. If the force requirement 
grows, this requirement would increase. The Navy and Marine Corps 
current TACAIR Integration Agreement (TAI) requires the Navy to field 
14 F-35C squadrons and the USMC to field four squadrons. This 
represents a mix of 273/67 aircraft.
    Mr. Turner. We have been told about high-end warfare and near-peer 
competitors. What do you envision as the primary role of the F-35C in 
the air wing of the future, and how will it create an effective 
advantage over the most advanced threats you anticipate the Navy will 
face?
    Admiral Miller. The F-35C will form the backbone of the Carrier Air 
Wing of the future. The F-35C complements the Navy's tactical fighter 
fleet and through continuous improvements in both fourth and fifth 
generation aircraft, ensures the Carrier Strike Group (CSG) is capable 
of projecting U.S. power and deterring potential adversaries. The F-35C 
brings fifth generation capability to the Carrier Air Wing. The F-35C's 
stealth characteristics, long-range combat identification and ability 
to penetrate threat envelopes while fusing multiple information sources 
into a coherent picture will transform the CSG decision superiority. By 
combining the correct mix of fourth and fifth generation strike fighter 
aircraft, the Navy will have the capability and capacity to accomplish 
the full spectrum of mission requirements including immediate response 
to high-end threats.
    Mr. Turner. The F-35 program has seen its share of cost and 
schedule growth over the last two decades. Given the Navy's roadmap to 
IOC and planned first deployment, how confident are you in the Navy's 
plan and current status of integrating the F-35 into the fleet and 
deploying it with full warfighting capability?
    Admiral Miller. The United States Navy is very confident with its 
plan to integrate F-35C into the Carrier Air Wing and deploy as 
scheduled in 2021 in the 3F software configuration. The 3F software 
configuration will provide the full warfighting capability against the 
current threat. F-35C integration efforts are well underway. The Navy 
has captured and applied lessons learned, from both an operational and 
maintenance perspective, following three Developmental Test (DT) events 
on active Aircraft Carriers at sea. The Navy is also leveraging lessons 
learned from USMC F-35B Air-Ship-Integration (ASI) efforts.
    Mr. Turner. Recently, there was a significant developmental test 
conducted flying the F-35C onboard a carrier. We heard it was a 
success. Obviously, this testing is exclusive to the Navy. Can you 
describe the Navy unique requirements that must be met to integrate the 
F-35C onto a carrier?
    Admiral Miller. The Navy has three unique requirements that must be 
met in order to integrate the F-35C into the Carrier Air Wing (CVW) and 
Carrier Strike Group (CSG). These requirements include:
    (1) Completion of a Carrier Suitability (CS) assessment during 
System Development and Demonstration (SDD).
    (2) Refinement of the F-35C's Global Support Solution (GSS) to 
ensure effective and efficient logistics and sustainment at sea.
    (3) Demonstration that the F-35C is tactically integrated and 
interoperable with all Carrier Strike Group assets and required 
networks.
    Amplification of each of these requirements is provided below:
    (1) F-35C Carrier Suitability assessment is planned during the 
afloat phase of Initial Operational Test and Evaluation (IOT&E) in 
2018. This assessment examines all phases of flight operations and 
maintenance activities. The Navy plans to use this assessment to 
identify any challenges that must be overcome prior to the first 
planned deployment in 2021.
    (2) The GSS represents an entirely new approach to supply and 
aircraft sustainment at sea (compared to legacy Navy aircraft). GSS is 
based on a complex system that shares resources between all logistical 
support stakeholders. The Navy has a dedicated team of logistics and 
sustainment professionals working directly with the Joint Program 
Office to ensure the GSS is able to meet all Navy requirements.
    (3) The F-35C must demonstrate it is tactically integrated and 
interoperable with all Carrier Strike Group assets and required 
networks. Although not fully addressed here, this includes 
collaborative mission planning, in-flight mission specific requirements 
and post mission information dissemination. The Navy continues to 
develop the infrastructure and ``Command and Control'' (C2) required to 
meet these battlespace awareness and mission execution requirements the 
F-35C will provide.
    Mr. Turner. We've heard a lot about the ``Delta Flight Path,'' or 
Magic Carpet, precision landing mode. Can you explain the results that 
were seen during the recent carrier testing and how you think this will 
effect training, performance and safety in the future?
    Admiral Miller. Delta Flight Path (DFP) is the Precision Landing 
Mode utilized by the F-35C for carrier arrested landings. The software 
is nearly identical to the MAGIC CARPET software recently introduced to 
the F/A-18E/F fleet. DFP was tested on all three F-35C Developmental 
Test evolutions and used by VFA-101 for the first fleet Carrier 
Qualification (CQ) at-sea period. A total of 12 pilots from VFA-101 
completed their initial daylight CQ. These events included 154 
approaches and resulted in a 100 percent boarding rate, of which, more 
than 80 percent were recovered using the targeted ``3'' wire. No 
recoveries were made using the ``1'' wire--the least favorable landing 
wire. These statistics are truly remarkable. DFP reduces pilot workload 
and minimizes aircraft deviations from a targeted flight path. Based on 
the current data set, DFP contributed significantly to the safe 
recovery aboard the aircraft carrier during each of these events. The 
Navy will continue to track DFP events in order to assess future 
training requirements.
    Mr. Turner. The Senate Armed Services Committee and others have 
called for the Air Force to ramp up F-35A procurement faster and 
transition into a new fighter program sooner. Does the Air Force have 
any program or studies in place to develop a follow-on to the F-35A, or 
some type of air-to-ground specialist akin to the F-35A/F-16/F-15E?
    General Harris. The Air Force does not currently have a program or 
study in place to develop a follow-on to the F-35A or any legacy air-
to-ground aircraft. Early investigation is being made into advanced 
counter-air and electronic attack concepts. However, these 
investigations are not focused on air-to-ground aircraft.
    Mr. Turner. Do you anticipate any change to the Air Force 
requirement for 1,763 F-35s?
    General Harris. The current F-35 program of record remains 1,763 
aircraft.
    Mr. Turner. Given that we must be prepared to face a ``near-peer'' 
adversary, the likelihood of such a conflict is low. Is the F-35 still 
necessary against lower threat countries such as Syria or Iran?
    General Harris. The F-35 is still necessary against lower threat 
countries such as Syria and Iran. Although these countries do not 
develop and field organic advanced threat systems, the USAF will face 
high threat systems exported by Russia and China. Iran already has the 
S-300 surface-to-air missile (SAM) system in place with Russian 
assistance. Several media reports also state that negotiations for the 
S-400 SAM system have already taken place. The view the USAF takes is 
that although the likelihood of facing a near-peer adversary in 
conflict is low, the likelihood of facing their exported advanced SAMs 
systems is very high. We must be prepared to meet and defeat or 
mitigate these advanced systems.
    Mr. Turner. The Air Force fiscal year 2017 budget request projected 
44 F-35s for fiscal year 2018. Do you believe the Air Force will seek a 
higher F-35 procurement rate for fiscal year 2018?
    General Harris. The Air Force will assess its planned buy for 
Fiscal Year 2018 (FY18) once it incorporates new fiscal guidance into 
its updated FY18 budget submission.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. As you know, earlier this month the White House 
announced a contract for 90 F-35 jets from Lockheed Martin Corp. valued 
at as much as $8.2 billion. Given the desire to activate more Guard and 
Reserve troops in military missions to build readiness and given that 
the Armed Services are losing pilots with experience to civilian jobs.
    In future F-35 basing decisions, have you considered looking to 
National Guard or Reserve bases sooner than originally planned or more 
often, where pilot retention is much more stable?
    For example, has a follow up to the recent Ops 5 and Ops 6 decision 
for the Air Force's F-35A been considered?
    General Harris. Yes, strategic basing decisions that follow Ops 5-7 
are currently under consideration. As you know, the fifth and sixth F-
35 operational locations are Air National Guard units and the seventh 
is an Air Force Reserve Command location. As it plays an integral role 
in our Total Force, we will continue to expeditiously bed down F-35s at 
Air Reserve Component bases. We anticipate starting the next round of 
F-35 basing this year, with accelerating the next ARC selection under 
consideration.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. I come from the Emerging Threats and Capabilities 
Subcommittee as Ranking Member, where cybersecurity is one of our 
highest priorities. Many have been critical of cybersecurity 
inadequacies within the F-35 program. Is intrusion testing being 
conducted on software that is currently in development?
    General Bogdan. Yes. Cybersecurity elements are embedded into the 
F-35's software modules including: the aircraft's Operational Flight 
Program (OFP), Mission Data Files (MDFs), Off board Mission Systems 
(OMS) and the Autonomic Logistics Information System (ALIS). 
Vulnerability and penetration testing is conducted throughout the 
software development process, and the U.S. Services perform independent 
audits of fielded software. The F-35 adheres to the DISA, U.S. Navy, 
U.S. Marine Corps, and U.S. Air Force cybersecurity policies/testing 
that lead to the granting of Authority to Operate (ATO) and Authority 
to Connect (ATC) for the F-35 Air System.
    To date, the Joint Strike Fighter Operational Test Team (JOTT) has 
led 15 cyber testing efforts on the F-35 system using 10 different 
cyber testing teams from the U.S. Air Force, U.S. Navy, U.S. Marine 
Corps, and Lockheed Martin. These testing efforts include Cooperative 
Vulnerability Penetration Assessments (Blue teams), Adversarial 
Assessments (Red Teams), air vehicle testing and Blue team inspections 
(``Blue Hunts'') for signs of illicit activity or software that could 
become active later.
    Extensive testing has been done on the potential entry pathways 
into ALIS. Each major ALIS node gets re-tested with every major 
software release. Testing on the air vehicle began in 2016 and will 
expand in the next year. Blue and Red teams will also assess the U.S. 
Reprogramming Lab and training systems.
    Vulnerabilities and areas where security can be improved are 
reported to the F-35 Joint Program Office in the form of Deficiency 
Reports, to be addressed in either immediate policy changes or future 
updates of software.
    Mr. Langevin. Can you compare the F-35's abilities compared to that 
of the next generation fighter jets coming out of China and Russia? 
Where do we excel, and additionally, what comparative challenges do we 
still face and must overcome?
    General Bogdan. The F-35's unique attributes of stealth and 
integrated systems afford an advantage over near peer adversaries' 
capabilities. The United States has the advantage of many years of 
experience developing and maintaining low observable platforms which 
has resulted in the advances you see in the F-35. Additionally, the F-
35's sensor suite and information fusion are unmatched in providing and 
sharing battlefield awareness. Also, the F135 engine for the F-35 is 
more reliable and maintainable and has a reduced signature level than 
4th generation aircraft engines. These advantages are brought to bear 
in advanced 5th generation tactics where the United States is the world 
leader. The F-35's Follow-on Modernization Program will ensure the F-35 
maintains its advantage over a rapidly evolving threat of future.
    Mr. Langevin. Can you compare the F-35's abilities compared to that 
of the next generation fighter jets coming out of China and Russia? 
Where do we excel, and additionally, what comparative challenges do we 
still face and must overcome?
    General Davis. The F-35 is without a doubt the most advanced, mass 
produced fighter aircraft in the world today. However, advanced 
aircraft and corresponding capabilities produced by competitors shows 
our advantage is shrinking. Other countries are aggressively developing 
low observable aircraft, advanced radars and IR sensors, along with 
highly capable air to air and air to ground weapons to compete with 
U.S. technology. While we currently enjoy a margin of advantage in 
building advanced avionics and stealth, these advantages won't last 
forever. It is imperative that we continue to invest in advancements in 
capability through follow-on-modernization (FOM) in order to maintain 
our tactical advantage over non-U.S. 5th generation platforms and 
provide the access the MAGTF requires to meet its mission. The Senate 
Defense Appropriations mark cut almost $45M from Marine Corps JSF FOM. 
This could delay FOM by a year, which I think is a dangerous decision. 
My goal is to maintain a lead in this technology race to ensure our 
Marines get the aviation support they need in any and all fights.
    Mr. Langevin. Can you compare the F-35's abilities compared to that 
of the next generation fighter jets coming out of China and Russia? 
Where do we excel, and additionally, what comparative challenges do we 
still face and must overcome?
    Admiral Miller. The F-35C's unique attributes of stealth and 
advanced integrated systems are a tactical advantage over near peer 
adversaries now and into the future. Planned Follow-on Modernization is 
required to ensure the F-35C will continue to pace a rapidly evolving 
threat. Its ability to collect and disseminate information for the 
Carrier Strike Group (CSG) assets, in real-time battle space, shifts 
the focus from kinematics to information dominance and greatly enhances 
the CSG's awareness, lethality and survivability in a high-end 
conflict.
    Mr. Langevin. I come from the Emerging Threats and Capabilities 
Subcommittee as Ranking Member, where cybersecurity is one of our 
highest priorities. Many have been critical of cybersecurity 
inadequacies within the F-35 program. Is intrusion testing being 
conducted on software that is currently in development?
    General Harris. Yes. Cybersecurity elements are embedded into the 
F-35's software modules including: the aircraft's Operational Flight 
Program (OFP), Mission Data Files (MDFs), Off board Mission Systems 
(OMS) and the Autonomic Logistics Information System (ALIS). 
Vulnerability and penetration testing is conducted throughout the 
software development process, and the U.S. Services perform independent 
audits of fielded software. The F-35 adheres to the DISA, U.S. Navy, 
U.S. Marine Corps, and U.S. Air Force cybersecurity policies/testing 
that lead to the granting of Authority to Operate (ATO) and Authority 
to Connect (ATC) for the F-35 Air System. To date, the Joint Strike 
Fighter Operational Test Team (JOTT) has led 15 cyber testing efforts 
on the F-35 system using 10 different cyber testing teams from the U.S. 
Air Force, U.S. Navy, U.S. Marine Corps, and Lockheed Martin. These 
testing efforts include Cooperative Vulnerability Penetration 
Assessments (Blue teams), Adversarial Assessments (Red Teams), air 
vehicle testing and Blue team inspections (``Blue Hunts'') for signs of 
illicit activity or software that could become active later. Extensive 
testing has been done on the potential entry pathways into ALIS. Each 
major ALIS node gets re-tested with every major software release. 
Testing on the air vehicle began in 2016 and will expand in the next 
year. Blue and Red teams will also assess the U.S. Reprogramming Lab 
and training systems. Vulnerabilities and areas where security can be 
improved are reported to the F-35 Joint Program Office in the form of 
Deficiency Reports, to be addressed in either immediate policy changes 
or future updates of software.
    Mr. Langevin. Can you compare the F-35's abilities compared to that 
of the next generation fighter jets coming out of China and Russia? 
Where do we excel, and additionally, what comparative challenges do we 
still face and must overcome?
    General Harris. The F-35's unique attributes of stealth and 
integrated systems afford an advantage over near peer adversaries' 
capabilities. The United States has the advantage of many years of 
experience developing and maintaining low observable platforms which 
has resulted in the advances you see in the F-35. Additionally, the F-
35's sensor suite and information fusion are unmatched in providing and 
sharing battlefield awareness. Also, the F135 engine for the F-35 is 
more reliable and maintainable and has a reduced signature level than 
4th generation aircraft engines. These advantages are brought to bear 
in advanced 5th generation tactics where the United States is the world 
leader. The F-35's Follow-on Modernization Program will ensure the F-35 
maintains its advantage over a rapidly evolving threat of future.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. The demand for traditional ISR by the Combatant 
Commanders continues to vastly exceed Service capacity to source. In 
many situations, ``fast air'' fighter aircraft are the only eyes and 
ears over the battlespace capable of observing the enemy and sharing 
critical information with the joint force. The F-35 is equipped with 
one of the most capable sensors suites ever developed; warfighter need 
and fiscal prudence requires that DOD smartly leverage the ability of 
our 5th gen aircraft to function as critical sensors over the 
battlefield. This capability is also important to many of our 
international partners, notably the U.K. Can you tell us what work has 
been accomplished to date to fully integrate the information collected 
by each F-35 sensor into our joint intelligence architecture? When will 
we have to ability to record and share what the F-35's active and 
passive sensors collect?
    General Bogdan. In the F-35's current Block 3F configuration, there 
is no capability to record sensor data because there was no original 
requirement to do so. However, this is a future requirement that will 
be addressed in the F-35's Follow-on Modernization Block 4 Program. In 
Block 4, the Program has a requirement to record and bring back sensor 
information for off board processing. The primary requirement for this 
capability is to fill the gaps or shortfalls of information or 
intelligence that is used to program Mission Data Files (MDF). The 
larger U.S. and Partner Military Intelligence communities (IC) are 
assessing the usefulness of the quantity and quality of the sensor data 
that an F-35 can provide. The F-35 Joint Program Office meets regularly 
with this community to assess IC requirements for access to this 
information and its ultimate processing and dissemination. 
Additionally, the U.S. Services and some Partners are developing their 
respective requirements (manpower and infrastructure) for the use of 
this data.
    Mr. Bacon. Success in a contested environment will depend on our 
ability to dominate the electro-magnetic spectrum. How has the AN/ASQ-
239 electronic warfare suite performed in testing and live fly against 
high-end threats? What improvements are required to ensure the F-35 can 
dominate in a contested environment? What additional enhancements are 
required at the U.S. Reprogramming Facility (USRF) to ensure our pilots 
have the most up to date mission data?
    General Bogdan. The AN/ASQ-239 Electronic Warfare (EW) system has 
performed well in testing. The detection range, Advanced Emitter 
Location (AEL), Enhanced Geolocation (EGL), threat Identification (ID) 
performance and system response time all meet or exceed performance 
specification against the F-35 Block 3 advanced threats. Threats are 
continuously evolving and the current AN/ASQ-239 will face challenges 
against future advanced threats. Future planned improvements to stay 
ahead of the evolving threats include expanded Radio Frequency 
coverage, expanded Electronic Attack modes, and improved processing 
algorithms for advanced and emerging threats. Improved Mission Data 
File (MDF) development and testing capabilities are also important to 
the successful performance of the AN/ASQ-239. It is imperative that the 
United States Reprogramming Laboratory (USRL) be able to test and 
verify future MDF performance against the advanced threats. The F-35 
Enterprise has plans to upgrade and improve the Reprogramming Labs to 
ensure we have the most up-to-date mission data. Examples of these 
future upgrades include a new, more robust Combat Electromagnetic 
Environment Simulator (CEESIM) and additional closed-loop threat 
simulation capability as well as improved tools to enable more rapid 
and efficient MDF creation.
    Mr. Bacon. The demand for traditional ISR by the Combatant 
Commanders continues to vastly exceed Service capacity to source. In 
many situations, ``fast air'' fighter aircraft are the only eyes and 
ears over the battlespace capable of observing the enemy and sharing 
critical information with the joint force. The F-35 is equipped with 
one of the most capable sensors suites ever developed; warfighter need 
and fiscal prudence requires that DOD smartly leverage the ability of 
our 5th gen aircraft to function as critical sensors over the 
battlefield. This capability is also important to many of our 
international partners, notably the U.K. Can you tell us what work has 
been accomplished to date to fully integrate the information collected 
by each F-35 sensor into our joint intelligence architecture? When will 
we have to ability to record and share what the F-35's active and 
passive sensors collect?
    General Harris. The F-35's sensor fusion solution and data sharing 
capabilities are focused on providing the interoperability required by 
the warfighter in support of the execution of the mission at the 
tactical level. The program is currently planning increased capability 
in these areas as part of Follow-on Modernization, to include Tactical 
Data Recording capability, which will allow the warfighter to record 
and use this data for ``next day'' missions. While there is no current 
capability or approved operational requirement to contribute to the 
Process, Exploit, Dissemination (PED) architecture, the Services 
continue to investigate future opportunities to include this capability 
in future F-35 upgrades.
    Mr. Bacon. Success in a contested environment will depend on our 
ability to dominate the electro-magnetic spectrum. How has the AN/ASQ-
239 electronic warfare suite performed in testing and live fly against 
high-end threats? What improvements are required to ensure the F-35 can 
dominate in a contested environment? What additional enhancements are 
required at the U.S. Reprogramming Facility (USRF) to ensure our pilots 
have the most up to date mission data?
    General Harris. The AN/ASQ-239 Electronic Warfare (EW) system has 
performed well in testing. The detection range, Advanced Emitter 
Location (AEL), Enhanced Geolocation (EGL), threat Identification (ID) 
performance and system response time all meet or exceed performance 
specification against the F-35 Block 3 advanced threats. Threats are 
continuously evolving and the current AN/ASQ-239 will face challenges 
against future advanced threats. Future planned improvements to stay 
ahead of the evolving threats include expanded Radio Frequency 
coverage, expanded Electronic Attack modes, and improved processing 
algorithms for advanced and emerging threats. Improved Mission Data 
File (MDF) development and testing capabilities are also important to 
the successful performance of the AN/ASQ-239. It is imperative that the 
United States Reprogramming Laboratory (USRL) be able to test and 
verify future MDF performance against the advanced threats. The F-35 
Enterprise has plans to upgrade and improve the Reprogramming Labs to 
ensure we have the most up-to-date mission data. Examples of these 
future upgrades include a new, more robust Combat Electromagnetic 
Environment Simulator (CEESIM) and additional closed-loop threat 
simulation capability as well as improved tools to enable more rapid 
and efficient MDF creation.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Since initial contract award of the F-35 ejection 
seat, what is the total cumulative number of ejection seat tests to 
date that have been accomplished to qualify the Martin Baker ejection 
seat for the F-35?
    General Bogdan. The F-35 Program has completed a total of 124 
ejection seat tests (with an ejection seat actuated from a test sled or 
test aircraft). These tests began in 2005 and completed in 2016. The 
tests included:
    <bullet>  8 tests in 2005 performed as proof of concept testing
    <bullet>  16 tests in 2006 developing and certifying the dash 1 (-
1) seat version for use in the first F-35 aircraft
    <bullet>  31 tests between 2007 and 2009 developing and certifying 
the dash 2 (-2) seat version for use in the Systems Development and 
Demonstration (SDD) aircraft
    <bullet>  32 tests between 2009 and 2010 developing and certifying 
the dash 4 (-4) seat version for use in the Low Rate Initial Production 
(LRIP) aircraft
    <bullet>  15 tests between 2012 and 2015 developing and certifying 
the Generation III Helmet-Mounted Display for use in SDD and LRIP 
aircraft
    <bullet>  22 tests between Nov 2015 and Sep 2016 to qualify the 
dash 6 (-6) seat version for use in LRIP aircraft
    Mr. Lamborn. Since initial contract award of the F-35 ejection 
seat, how many design changes have there been to the Martin Baker seat?
    General Bogdan. There have been three design configuration changes 
to the F-35 ejection seat cleared for flight since the original 
configuration for a total of four versions. Each configuration is 
designated with a dash number, -1, -2, -4 and -6. The -1 seat was the 
first design cleared and supported the first F-35 aircraft which is 
designated AA-1. The -1 seat was similar to legacy seats that came 
before the F-35. The -2 seat introduced an airbag system to support the 
pilot's head during the initial stages of the ejection (when the pilot 
is in the seat). The -4 seat refined the airbag system to incorporate 
lobes beside the head to keep the head centered during the initial 
stages of ejection. The -6 seat effort was to redesign and test a new 
sequencer due to Diminishing Manufacturing Sources. During that 
process, performance deficiencies were discovered and prompted 
additional design efforts that led us to introduce a head support panel 
(HSP) between the rear risers of the parachute to support the head of 
the pilot after separation from the seat and a pilot selectable switch 
(aka the ``light/heavy pilot weight switch'') to control parachute 
opening loads.
    Mr. Lamborn. Lt Gen Bogdan indicated that the Air Force incurred no 
additional costs with recent modifications and testing of the Martin 
Baker seat to qualify for lower weight pilots. Has the program ever 
incurred any costs due to design changes or testing of the Martin Baker 
seat since contract award?
    General Bogdan. Yes. The ejection seat system has undergone 
incremental development and the Program has borne those costs. There 
have been three design configuration changes to the F-35 ejection seat 
cleared for flight since the original configuration with the latest 
version being designated as the ``-6'' version. The -6 seat effort was 
to redesign and test a new sequencer due to Diminishing Manufacturing 
Sources. During that process, performance deficiencies were discovered 
and prompted additional design efforts that led us to introduce a head 
support panel (HSP) between the rear risers of the parachute to support 
the head of the pilot after separation from the seat and a pilot 
selectable switch (aka the ``light/heavy pilot weight switch'') to 
control parachute opening loads. The costs to design and test 
modifications due to the performance deficiencies were incurred by the 
Industry team (Lockheed Martin, BAE Systems and Martin Baker).

                                  <all>
</pre></body></html>
